Additional Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution Unit at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing
by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                            ODIG-AUD (A TIN: Audit Suggestions)
                            Department of Defense Inspector General
                            400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  DE PARHIE Ni Of DEfENSE
                                       To report fraud, waste. mismanagement, and abuse of authority.
                                       Send written complaints to: OefenseHotl~ 1hePentagon. Was/Iing1DI\. DC 20301-1900
                                       Phone: 1m424.9098 e-mail: ho!I!Ie!dodigJnWNW.dodIg.niIhodIne




Acronyms and Abbreviations
ASC                                Army Sustainment Command
COR                                Contracting Officer's Representative
DCA A                              Defense Contract Audit Agency
OFARS                              Defense Federal Acquisition Regulation Supplement
DFSP                               Defense Fuel Support Point
DLA                                Defense Logistics Agency
FAR                                Federal Acquisition Regulation
FOB                                Free On Board
GAO                                Government Accountability Office

Wc
KBR
                                  _ a d i n g Company
                                  Kellogg, Brown, and Root
LOA                               Letter of Authorization
LOGCAP



"
PGI
RO
USCENTCOM
                                           on
                                   Procedures, Guidance, and Information
                                   Responsible Officer
                                   U.S . Central Command
                                         INSPECTOR GENERAL 

                                      DEPARTMENT OF DEFENSE 

                                         400 ARMY NAVY DRIVE 

                                    ARLINGTON, VIRGINIA 22202-4704 


                                                                                             March 15,2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              COMMANDER, U.S. CENTRAL COMMAND
              DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Competition Issues and Inherently Govel'llmental FunctioJ1S Performed by Contractor
         Employees on Contracts to Supply Fuel to U.S. Troop~s in Iraq (Report No.
         D-20 11-049)

We are providing this report for review and comment. The report addresses issues Congressman
Henry Waxman, the former Chairman of the House Committee on Oversight and Government
Reform, raised to the Secretary of Defense relating to the competitions and prices paid under a
series of fuel supply contracts awarded to the International Oil Trading Company (lOTC). We
also determined the Logistics Civil Augmentation Program contractor performed the inherently
governmental function of accepting fuel that IOTC delivered. We considered comments from
the Defense Logistics Agency on the draft of this report in preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The comments
from the Defense Logistics Agency were partially responsive. Therefore, we request additional
comments from the Director, Defense Logistics Agency, on Recommendations A.1, B.1, and B.2
by April 18, 2011.

If possible, please send a .pdffile containing your comments to 8udacm®dodiK,mil. Copies of
your comments must have the actual signature of the authorizing official for your organization.
We are unable to accept the /Signed/ symbol in place of the actual signature. If you arrange to
send classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Hemy F.
Kleinknecht at (703) 604-9324 (DSN 664-9324).



                                              r~!:a~.~
                                              'f' 	 Assistant Inspector Genera}
                                                   Acquisition and Contract Management

                                          8PI!1SIA15 'lh\ft.'lIl'IS

Til S I'e                    . etol' information that llIay be compRUY con                      I' etRI)!.
Section 1905, title 18, United n                                      , nlted StAtes Code, provide
spccific IlcnRUics for the llll                OSUl'C of COlllJlAI              . )1'0 ll'ietRI'Y
lufon'                 IS safcglUll'd this report In Accord'Rucc with DoD Regulatioll




                                     P8R 8:fPl8IAI5        ~8:B   8N15Y
Report No. D-20 11-049 (Project No. D2009-DOOOCH-0244.000) 	                         March 15,2011


              Competition Issues and Inherently Governmental
              Functions Performed by Contractor Employees on
              Contracts to Supply Fuel to U.S. Troops in Iraq

What We Did                                              In addition, DLA Energy contracting officers
                                                         inappropriately used the Logistics Civil
We initiated this audit to review issues                 Augmentation Program (LOGCAP) contractor to
Congressman Henry Waxman, the former                     accept fuel at three Defense Fuel Support Points
Chairman of the House Committee on Oversight             located in Iraq. Although a contractor may be
and Government Reform raised relating to prices          used to receive shipments of Government-owned
paid on a series of fuel supply contracts awarded        fuel, a contractor may not be used to accept title to
to the International Oil Trading Company                 fuel on behalfofthe Government. The LOGCAP
(lOTC). We reviewed the Defense Logistics                contractor was accepting the fuel because DLA
Agency (DLA) Energy's decisions to award a               Energy contracting officers did not:
series of contracts to IOTC for the delivery of
fuel to u.s. troops in Iraq.                              • 	 assign "responsibility for acceptance" to 

                                                              either a contracting officer's representative, 

What We Found                                                 a cognizant contract administration office, 

DLA Energy contracting officers did not perform               or another agency; 

an adequate proposal analysis for three of four           • 	 adhere to contract terms requiring the use 

contracts valued at about $2.7 billion that were              of a DD Form 250 receiving report; and 

awarded to the IOTC to supply fuel to                    • 	 negotiate an agreement with the Army 

u.s. troops in Iraq. The proposal analyses for the           Sustainment Command for the Government 

three contracts were inadequate because the                  acceptance of the fuel that IOTC delivered 

contracting officer for those contracts:                     to the contractor-operated fuel sites. 

 • 	 primarily used "adequate price competition"         As a result, Kellogg, Brown, and Root (the
     as the justification to support price               LOGCAP contractor) accepted the fuel that IOTC
     reasonableness even though "IOTC may have           delivered for the Government.
     reasonably anticipated no competition"
                                                         Recommendations, Management
     because no one else could transport the fuel
     through Jordan, and                                 Comments, and Our Response
 • 	 did not identify that the unusual                   We recommend the Commander, DLA Energy
     circumstances of these procurements dictated        obtain some type of cost or pricing data and
     that some type of cost or pricing data and          appropriate field pricing assistance to support
     appropriate field pricing support were needed       the reasonableness of the offerors' proposed
     to support price reasonableness.                    prices to supply fuel to contingency operations,
As a result, the contracting officer had limited         and designate and use qualified Government
data to support costs for the non-fuel component,        personnel to accept the fuel. The Senior
such as transportation, of about $1.1 billion and        Procurement Executive, DLA, partially agreed
failed to obtain adequate support that the agreed­       with the recommendations, but the proposed
to fuel prices were fair and reasonable. We              actions were not responsive. Therefore, we
calculate that DLA Energy paid IOTC about                request additional comments on
$160 to $204 million (or 6 to 7 percent) more for        Recommendations A.I, B.l, and B.2
fuel than could be supported by price or cost            by April 18, 2011. See the recommendations
analysis.                                                table on the back of this page.

                                                     I
                                    .,8R 8FFI@Vds        ~s~   8NIsY
    Report No. D-2011-049 (Project No. D2009-DOOOCH-0244.000)               March 15,2011



    Recommendations Table

           Management                   Recommendations              No Additional Comments
[                              [I      Requiring Comment                    Required
I Commander, DLA Energy II A.I , B.I , and B.2                     II A.2                     I
    Please provide comments by April 18, 2011.




                                               ii
                                128M   81212I(JIA~5 t;S~   8NI5¥
Table 	o f Contents
Introduction

       Audit Objectives                                                          1

       History and Mission of DLA Energy                                         I

       DLA Energy Internal Controls                                              4


Finding A. Questionable Competition on Jordan Fuel Supply Contracts              5


       Guidance                                                                  5

       Proposal Analyses and Price Reasonableness Determinations Can 

           be Improved                                                           5

       Contracting Officer Did Not Obtain Cost or Pricing Data to Establish 

           Reasonableness of Offered Prices                                     19 

       Conclusion                                                               25 

       DLA Energy Management Comments on the Finding and Our Response           25 

       Recommendation, Management Comments, and Our Response                    27 


Finding B. 	Contractor Acceptance of Fuel is an Inherently 

           Governmental Function                                                29 


      Guidance                                                                  29 

      DLA Energy Used IOTC Contracts to Supply Fuel Through Jordan to 

          Various Locations in Iraq                                             29 

      Contractor Employees Performed Inherently Governmental Functions          30 

      Contracting Officers Neglected Responsibility for Fuel Acceptance         32 

      Contract Requirements for Fuel Acceptance Not Followed                    34 

      DLA Energy and Army Sustainment Command Did Not Establish a 

          Memorandum of Agreement                                               35 

      Conclusion                                                                36 

      Recommendations, Management Comments, and Our Response                    36 


Appendices

      A. 	 Scope and Methodology                                                39 

               Prior Coverage                                                   40 

      B. Congressional Request 	                                                41 

      C. Secretary of Defense Letter 	                                          56 

      D. Response to Congressional Issues 	                                     57 

      E. Guidance 	                                                             58 

      F. Additional Information on Contractor Protests 	                        63 

      G. 	 International Ojl Trading Company-Created Fuel Delivery and 

               Acceptance Form                                                  66 

      H. DO Form 250, Material Inspection and Receiving Report 	                67 


                              f8R: 8ffI@Vr15 (cJSl'J   8N~ll
Management Comments

     Defense Logistics Agency   68
Introduction
We initiated this project in July 2009 to review issues that Congressman Henry Waxman, the
former Chairman of the House Committee on Oversight and Government Reform, raised in an
October 16, 2008, letter to the Secretary of Defense relating to prices paid for the fuel
delivered under a series of contracts awarded to the International Oil Trading Company
(I0TC).

Aud it Objectives
Our objective was to review the Defense Logistics Agency (DLA) Energy's decision to award
a series of contracts to 10TC for the delivery offuel through Jordan to U.S . troops in Iraq.
Specifically, the audit reviewed whether:

    •   the fuel needed to be supplied through Jordan,
    •   an exclusive supply arrangement had an impact on prices, and
    •   prices paid were fair and reasonable.

In addition, due to conditions identified during our initial fieldwork, we expanded the scope of
the audit to include a review of the internal controls related to the receiving, accepting,
invoicing, and paying for fuel , as well as an analysis of whether the Army paid for more fuel
than it received under the contracts. See Appendix A for a discussion of the scope and
methodology and for prior coverage related to these objectives. See Appendices B, C, and D
for a copy of Congressman Waxman's letter, a copy of the Secretary of Defense's request that
we conduct an independent audit of the contracts, and a discussion of the key issues raised in
the Congressman's letter.

History and Mission of DLA Energy
The origin ofDLA Energy dates back to World War II. Originally, it was the Army-Navy
Petroleum Board, an entity of the Department ofInterior, and it administered the critical
petroleum requirements during World War II. In 1945, DLA Energy was transferred to the
War Department and became the Joint Army-Navy Purchasing Agency. The Agency
underwent several name changes but its mission remained essentially the same until 1962
when it became part of the consolidated military supply organization, the Defense Supply
Agency (now known as DLA). The Agency was designated the Defense Fuel Supply Center
in 1964 and was the single entity responsible for purchasing and managing DoD's petroleum
products and coal. The Defense Fuel Supply Center progressed from a wholesale fuel central
procurement activity to a more comprehensive logistics mission as the integrated materiel
manager for DoD petroleum products. On February II, 1998, the Agency was named the
Defense Energy Support Center and received the new mission of building an energy program
to manage energy products. On July 19,2010, DLA Energy was given its current name in an
effort to clearly identify it as part of DLA. Despite the changes in organizational structure and
expanded mission, DLA Energy continues its basic mission of supporting the warfighter and
managing DoD's energy sources.
Iraqi Fuel Supply Routes
According to the U.S. Central Command's (USCENTCOM) Joint Petroleum Office, military
units operating in Iraq required more fuel to meet their mission requirements, resulting in an
urgent need for the fuel supply route through Jordan into Iraq. The Kuwait fuel supply route
was already operating at its peak capacity, and due to logistical issues, the quantity of fuel that
USCENTCOM could obtain from the North Atlantic Treaty Organization pipeline through
Turkey was limited and unreliable. Consequently, the Command needed a third fuel supply
route and, due to the political realities of the region, going through Jordan was the only
alternative. Figure 1 shows the Kuwait, Turkey, and Jordan fuel supply routes and the
estimated daily fuel requirements met by each route.

                              Figure 1. Iraqi Fuel Supply Routes




Responsibility for Defense Fuel Support Points in Iraq
According to DLA Energy representatives, the Army was having difficulty accounting for its
fuel in Iraq and requested assistance from DLA. Therefore, the DLA Director instructed



                                            2
                                 F81t 8FFI@IAb -SSE        8NJ~H
DLA Energy to manage and oversee the fuel being supplied to the U.S. troops operating in
Iraq. During the period covered by IOTC's contracts, DLA Energy was in the process of
implementing this action which resulted in IOTC delivering fuel to both capitalized and
noncapitalized Defense Fuel Support Points (DFSPs).

Capitalized Sites. The ownership of the fuel inventory at capitalized sites resided with
DLA Energy as a part of its Defense Working Capital Fund.

Noncapitalized Sites. The ownership of the fuel inventory at noncapitalized sites resided with
the respective Military Service that was managing and overseeing its operations.

DLA Energy used Kellogg, Brown, and Root (KBR), the Anny's Logistics Civil
Augmentation Program (LOGCAP) contractor, to manage the fuel sites it capitalized, while
Service Members managed the sites that had not been capitalized by DLA Energy. Before
DLA Energy awarded the Jordan fuel supply contracts, it did not matter whether a contractor
operating the fuel sites accepted the fuel, as the fuel being supplied through the other two fuel
supply routes was being delivered Free-On-Board (FOB) Origin, I where the ownership of the
fuel transferred to the Government before its receipt at the DFSPs. However, the fuel supplied
under the IOTC contracts was being delivered FOB Destination 2 where ownership did not
transfer to the Government until it was accepted by the personnel operating the DFSPs. As a
result, DLA Energy needed to ensure that Government employees were present at the
capitalized DFSPs to accept the fuel that IOTC delivered on behalf of the Government.

Reasonableness of Fuel Costs Questioned
In October 2003, many members of Congress began raising concerns about KBR's fuel
charges. Independent experts also expressed doubts about the reasonableness ofKBR's fuel
prices, calling them "highway robbery," and noted that they could not reconstruct KBR's
prices. In addition, the Defense Contract Audit Agency (DCAA) questioned $106 million of
the charges incurred under the contract because KBR did not support the reasonableness of the
prices paid for the fuel. DCAA also found that KBR did not demonstrate adequate
competition in its Kuwait fuel procurement decision. In that instance, although KBR had
received three bids, KBR detennined that only one of the providers was qualified to satisfy its
requirement because the company was the only supplier licensed by the Kuwait Petroleum
Company to procure and distribute petroleum products in Kuwait. Therefore, DCAA
concluded that:
    • 	 the other offerors' bids were irrelevant because there could not be an expectation of
        competition when only one supplier was licensed to provide the fuel,


I "FOB Origin" means the seller or consignor places the goods on the conveyance. The ownership or title of the
goods transfers at the origin and, unless the contract provides otherwise, the buyer or consignee is responsible for
the cost of shipping and the risk of Joss.

2 "FOB Destination" means the seller or consignor delivers the goods on the seller's or consignor' s conveyance.
The ownership or title of the goods transfers at the destination and, unless the contract provides otherwise, the
seller or consignor is responsible for the cost of shipping and the risk of loss.


                                                         3
                                       FQR 9FFIC!JML"ls (9Sil        QN~lt
     •     the procurement did not result in a competitive award and should have been considered
           a sole-source procurement, and
     •     KBR should have actively pursued reducing the price for fuel.

Ultimately, on December 30, 2003, DoD relieved KBR of its fuel importation responsibilities.

IOTC's Fuel Contracts
As Table 1 shows, over the last 6 years, DLA Energy issued four fixed-price contracts with
economic price adjustment clauses to IOTC for the supply of fuel to the u.s. troops in Iraq
through Jordan with an estimated total value of about $3.1 billion. 3

                    Table 1. U.S. Central Command's Estimated Fuel Requirements
                                                                   Fuel Required
                         II                     I                    (in gallons ~                     II                     I
                               Period of
         Contract       II    Performance       I!    Jet Fuel     II    Diesel           Gasoline     I    Contract Value    [
SP0600-04-D-0506        II    Jun 04 - Jun 05         46,280,000   II   1,722,897            N/A               $359,337,815 I
SP0600-05-D-0497        II    Jul 05 - Jun 07        236,250,000   II   20,150,000        3,079,512             626,145,375 I
SP0600-07-D-0483        II    Jul 07 - Aug 09        341 ,200000   II   30,000,000   I     6,397,500          1,081,175,105 I
SP0600-09-D-0515
                        II    Sep 09 - Feb 10        340,600,000        25,550,000   II    6,390,500          1,011,173,965   !
Total                   II                           964,330,000   II 77,422,897 II       15,867,512   I     $3,077,832,260 I
                                                                   "
The economic price adjustment clauses were designed to eliminate the risk caused by
fluctuations in the fuel component of the unit price.

DLA Energy Internal Controls
DoD Instruction 5010.40, "Managers' Internal Control Program (MICP) Procedures,"
July 29,2010, requires DoD organizations to implement a comprehensive system of internal
controls that provides reasonable assurance that programs are operating as intended and to
evaluate the effectiveness of those controls. Although we question the sufficiency of the
proposal analyses performed for these contracts, we do not consider the problems identified to
have resulted from internal controls weaknesses in DLA Energy's contract award process, but
rather judgments made within the contracting officer's authority. However, we did identify
internal control weaknesses in DLA Energy's administration of its fuel contracts. Specifically,
DLA Energy allowed an IOTC-created fuel delivery and acceptance form to be substituted for
the required DD250, "Material Inspection and Receiving Report." The contract language did
not ensure that a Government representative accepted title to the fuel. We will provide a copy
of the final report to the senior official responsible for internal controls at DLA Energy.




3 Trigeant,
         an affiliate company ofIOTe, was awarded another fuel delivery contract (contract SP0600-04-D­
0490) after DLA Energy terminated a contract it had with the Shaheen Business and Investment Group because
the company did not deliver the required fuel.


                                                    4
                                        F81t 8FFI(JVi'Is         ~8E 8N~lf
Finding A. Questionable Competition on Jordan
Fuel Supply Contracts
DLA Energy contracting officers did not perform an adequate proposal analysis for three of
four contracts valued at about $2.7 billion that were awarded to IOTC to supply fuel through
Jordan to U.S. troops in Iraq from July 2005 to February 2010 . The contracting officer for the
first contract with IOTC should be commended for her proposal analysis techniques and
efforts to reduce fuel prices. However, the proposal analyses for the last three contracts were
inadequate because the contracting officer for those contracts:

    • 	 primarily claimed "adequate price competition" as the justification to support price
        reasonableness even though "IOTC may have reasonably anticipated no competition,"

   • 	 did not include appropriate Federal Acquisition Regulation (FAR) Subpart 15,
       "Contracting by Negotiation," contract clauses in the solicitations to provide for
       DCAA audit rights on the noncommercial, nonfuel component of the price, even
       though the fuel was procured under FAR Subpart 12, "Acquisition of Commercial
       Items," and

   • 	 did not identify that the unusual circumstances surrounding these procurements
       dictated that some type of cost or pricing data and appropriate field pricing support
       were needed to support price reasonableness.

As a result, the contracting officer had limited data to support the nonfuel component of price
estimated at contract award to be worth about $1.1 billion and did not obtain adequate support
that the agreed-to fuel prices were fair and reasonable. We calculate that DLA Energy paid
IOTC about $160 to $204 million more (or 6 to 7 percent) more for fuel than could be
supported by price or cost analysis.

Guidance
See Appendix E for FAR and Defense Federal Acquisition Regulation Supplement (DF ARS)
guidance on responsible prospective contractors, pricing policy, adequate price competition,
requirements for cost or pricing data, and field pricing assistance.

Proposal Analyses and Price Reasonableness
Determinations Can be Improved
#1 - Contracting Officer Could Not Determine the Prices for
Contract SP0600-04-D-0506 Were Reasonable
On May 21, 2004, DLA Energy solicited bids for contract SP0600-04-D-0506. The
solicitation issued included the following clause that required offerors to submit a letter of
authorization (LOA) to demonstrate that the Government of Jordan had authorized them to
transport fuel through Jordan before the close of negotiations.


                                                5
                                F'8R:   8F'F'leI2~   tIS)! 8Pt"b 71
         All offerors must submit [an LOA] from the Jordanian government which permits the
         contractor to bring fuel through Jordanian territory in transit to Iraq prior to the close of
         negotiations on June 3, 2004.

IOTC - Only Responsible Offeror. DLA Energy used the lowest price technically
acceptable source selection process to evaluate the six offers received in response to the
solicitation. All six offers were determined to fall within the competitive range. 4 However,
Table 2 shows that IOTC was the only offeror determined to be capable of fulfilling the
requirements identified in the contract's solicitation.

                                 Table 2. Responsibility Determination




Price Reduction Efforts. The price negotiation memorandum that the contracting officer
prepared for this procurement stated:

        IOTC may have reasonably anticipated no competition and that no other offer could
        meet the requirements of the solicitation as the Jordanian Ministry of Energy advised
        IOTC that the Ministry would not issue any additional [LOAs] authorizing the transport
        of jet fuel for this solicitation. Based on the guidance provided in FAR 1SA03-1
        (c)(l)(ii)(A) for establishing adequate price competition, the Contracting Officer cannot
        reasonably conclude that IOTC's offer was submitted with the expectation of
        competition.

IOTC initially offered to provide the jet fuel f o r _ per gallon. During negotiations, the
contracting officer urged IOTC to lower its pric:.-T'he contracting officer advised IOTC that
                                                     the procurement was a competitive action
                                                     and that it had purchased jet fuel delivered
       "The contracting officer cannot               in the region at prices substantially lower
  reasonably conclude that lOTe 's offer             than IOTC's offered price in the past. The
   was submitted with the expectation of             contracting officer also clarified that the
                 competition. "                      solicitation did not require the use of
                                                     epoxy-coated trucks, which IOTC was in
the process of purchasing with the understandin~ their use waiireuired. As a result,
IOTC revised its unit price twice from. t o _ and then to                 per gallon.

4 The competitive range is composed of the most highly rated proposals and is established to convey to the
offerors falling within the range that they have a chance of winning and, therefore, encourage them to compete
aggressively.


                                                   6
                                       F8M 8J'FI@hlzI5        ~8Jj   8PihY
DLA Energy then provided IOTe with price objectives 5 in an estimated price range of$1.49
to $1.51 per gallon. The price objectives were based on current contracts and historical data
for fuel movements similar to or the same as delivery through Jordan and included product
price, transportation, storage, and testing costs. IOTe provided several reasons for its offer
         . well          DLA                         .




                                   to
                   its unit price to $2.1 0 per gallon

In order to further analyze IOTe's $2.10 unit price, the contracting officer requested that
IOTe submit a breakdown of the costs that made        its unit ·ce. IOTe submitted the


                                                                                   a
                            to                              various cost elements. The
contracting officer also compared IOTe's unit price to unit prices that the DLA Energy
contracting office constructed from prices paid under similar competitively awarded contracts.




5The range of prices that the contracting officer considered reasonable based on the prices paid under other fuel
delivery contracts in the region.


                                                        7
                                      f81t   8PPI@~1rJ5      USI§ 8MbY
As Table 3 shows, IOTC's unit price of $2.1 0 per gallon is significantly higher than the unit
prices that DLA Energy constructed from similar competitively awarded contracts.

                            Table 3. Per Gallon Unit Prices for Jet Fuel




   Net Fuel Price

   Transportation to Iraq
   Storage at Aqaba
   Testing
   Demurrage


                                                                       J~
                                                                        I ====~~======~I
                                                                          I




                                                                          I I~I==~__~
                                                                          ~J
                                                                          1 1:=== =
                                           :===::$===2.::::::::10===00:=:11   $1.6480   II




The differential between IOTC's final revision and the DLA Energy constructed price was
$0.36 ($2.1000 versus $1.7390). In the price negotiation memorandum, the contracting officer
stated that although some ofIOTC's cost factors were higher than DLA Energy's constructed
price, other cost factors , such as transpo     were lower. The contractin officer also noted
that IOTC's unit price included several factors
which would not be experienced by the Government                              e pncmg      not
exist. Based on those findings, the contracting officer was unable to conclude that IOTC's unit
price for jet fuel was reasonable.

After being informed of the situation, USCENTCOM maintained that it had an urgent need for
jet fuel sourced through Jordan. As a result, the contracting officer referred the contracting
action to the Chief of Contracting, Bulk Fuels, for review and further action by the Center

                                                       8
                                  F8It 8FFI(Jli\+J l'Sl! 8NbY
Senior Procurement Official; this was was followed by a final recommendation for award by
the Director, DLA Energy.




#2 - Contracting Officer Determined Prices for Contract SP0600-05­
0-0497 Reasonable Based on Conclusion that IOTC's Offer was
Submitted with the Expectation of Competition
On March 15,2005, DLA Energy solicited bids for contract SP0600-05-D-0497. The
solicitation included the following clause that required offerors to submit an LOA to
demonstrate that the Government of Jordan had authorized them to transport fuel through the
country before the close of negotiations on May 18,2005.
       Offerors importing product(s) into Aqaba must provide a copy of the required Letter of
       Authorization (LOA) from the Government of Jordan Energy Ministry by May 18,2005.

IOTe - Only Responsible Offeror. DLA Energy used the lowest price technically
acceptable source selection process to evaluate the four offers received in response to the
solicitation. All four offers were determined to fall within the competitive range. However, as
Table 4 shows, 10TC was again the only offeror determined to be capable offulfilling the
requirements identified in the contract's solicitation.

                               Table 4. Responsibility Determination




The contracting officer determined 10TC's prices to be fair and reasonable based on his
determination that there was adequate competition as defined at FAR 15.403-1 (c)(ii).
Specifically, in the price negotiation memorandum, the contracting officer included the
following statements to support his determination.

       It was reasonable to expect that two or more responsible offerors, competing
       independently, would submit offers under the solicitation based on the following: The
       solicitation was synopsized at FedBizOpps on February 25,2005 on a full and open basis
       and after which it was issued on March 15, 2005 , and closed on April 11, 2005, a period
       of 45 days from synopsis to initial closing. Eight firms either registered as interested
       prospective offerors at the FedBizOpps or contacted the contracting office about this
       solicitation after it was synopsized and prior to receipt of initial offers, including.
       which directly and with an affiliated firm, _           currently has at least one current

                                                      9
                                    F8ft 8FFI@,*h          .,S~   8NhY
       contract with a DLA component in support of US forces in Iraq and has recently had one
       other contract with DESC [DLA Energy] in support of US forces in Iraq, while offering
       on other DESC solicitations in the theater. The two prior solicitations for supply of
       product from Jordan into Iraq (for the requirements of the Iraqi civilian population and
       for the prior us military requirements) each resulted in the receipt of multiple initial
       offers, a fact that the IOTC USA was aware of, as their affiliated companies had
       participated in both solicitations.

       Based on the IOTC USA offer received, the contracting officer has concluded and it is
       considered by the Contracting Officer to a be reasonable conclusion that the IOTC USA
       offer was submitted with the expectation of competition due to the following
       circumstances of the offer. IOTC USA's [jet fuel] offered price on this solicitation is
       _         cents per gallon lower than their current contract price. Both the current [jet
       ~tract price and the IOTC USA                             are on the identical escalator. The
       IOTC USA offered price for [jet fuel] is                 pe    lionreffective
                                                                            .        March 1, 2005,
       while their March 1, 2005, [jet fuel]                 ce] is            per galion. Another
       way of making the same comparison is to subtract the awar e price ($2.10 effective
       January 1, 2004) on the current IOTC.SA              'et fuel] contract from the [jet fuel]
       reference price it was tied to at award                 which results in a margin which is
       constant over the life of the contract and to t IS case i s _ _ The same calculation
       for the IOTC USA o f f e r _ . . _ resu~argin o f _ In
       addition, Mr. Harry Sarg~egotiator for IOTe US~nted
       during negotiations that he believed tbat other firms were interested. (emphasis
       added)

The rationale that the contracting officer used to support that IOTC submitted its offer with the
expectation of competition is questionable. Based on the unusual circumstances surrounding
these procurements, it is not reasonable to conclude that IOTC had the expectation of
competition just because it was aware that multiple offers had been submitted for the previous
two solicitations for the supply of product from Jordan into Iraq. Clearly, the contracting
officer for IOTC's first procurement did not come to that conclusion. To the contrary, the
contracting officer concluded that IOTC may have reasonably anticipated it had no
competition because the Jordanian Ministry of Energy infonned the company that it would not
issue any additional LOAs authorizing the transport ofjet fuel for the solicitation. In addition,
that contracting officer was unable to conclude that the $2.10 per gallon award price used to
support the reasonableness of the price that IOTC offered for this procurement was reasonable.

                  officer for the first contract noted that IOTC's $2.10 unit price included
                                                              that would not be experienced by the
                                                                 . One of those cost factors was the




                                                       10
                                     ..81t 8""I@l/m tiSt5          8n~71
contract award was offering jet fuel for a significantly lower price of about_ per gallon, a
difference             gallon. Presumably, once the supply route was estab1ished, 10TC used
                    to fulfill USCENTCOM's total fuel requirement. We found that to be the
                             -D-0483.

#3 - Contracting Officer Determined Prices for Contract SP0600-07­
0-0483 Reasonable Based on Conclusion That IOTC Anticipated
Other Competitive Offers
On December 15,2006, DLA Energy issued the solicitation for contract SP0600-07-D-0483.
DLA Energy received seven offers in response to the solicitation. DLA Energy switched to
the best value source selection process for selecting the source to fulfill the fuel requirements
covered by this contract. The solicitation stated that the contract would be awarded to the
responsible offeror whose offer conformed to the solicitation and represented the best overall
value. The solicitation identified three factors (price, past performance, and technical
capability) that the Government planned to use to determine which offer represented the best
overall value. The nonprice factors together were significantly more important than price.
Table 5 shows the ratings that DLA Energy assigned to the four offerors whose offers were
determined to fall within the competitive range.

                      Table 5. Offerors' Price and Evaluation Ratings




On May 3, 2007, based on his integrated assessment of how well the offerors' proposals met
the evaluation factors, the contracting officer determined that the fuel and related services
proposed by 10TC provided the best overall value and awarded the contract to 10Te.




                                             11
                                 f8R 8ffl@Ii'.lm    ~819   8iti15Y
                                                          re,     were        e to
                  on reqUirements.         on that fact, the contracting officer found 10TC to be
the only eligible offeror to be awarded the contract.

                               Table 6. Responsibility Determination




Price Reasonableness Determination. The contracting officer again determined that 10TC's
prices were fair and reasonable based on his determination that there was adequate competition
as defined by FAR 15.403-1 (c)(ii). Specifically, the updated price negotiation memorandum
that the contracting officer prepared on June 8, 2007, included the following to support the
detennination that 10TC had submitted its offer with the expectation of competition.

       The solicitation was synopsized at FedBizOpps on December 8, 2006, on a full and open
       basis. It was issued on December 15,2006, and closed January 16,2007. Seven firms
       submitted initial offers. The three prior DESC solicitations for the supply and delivery
       of product from Jordan into Iraq (initially for the requirements of the Iraqi civilian
       population and subsequently for the US military requirements beginning in 2004) all
       resulted in the receipt of multiple offers. IOTC USA was aware of the competition
       received on previous solicitations for the fuel requirements from Jordan, as they or their
       affiliated companies had participated in all prior solicitations. As indicated previously,
       the small percentage increases (3.7% and 4.7%, respectively) in the prices for [jet fuel]
       and [diesel], the two largest requirements and the only products for which comparisons
       between this and the prior solicitations can be made, demonstrate that the proposed
       prices are reasonable compared to the prices paid previously.

Again, the rationale that the contracting officer used to support that rOTC had submitted its
offer with the expectation of competition is questionable.

Contracting Officer Determined that it was in Best Interest of
Government to Exercise Option for Contract SP0600-07-D-0483
Rather Awarding New Contract
On October 15,2007, DLA Energy issued the solicitation for the contract SP0600-07-0-0483
option year-I competition. DLA Energy received five offers in response to the solicitation.
OLA Energy used the best value source selection process to determine whether to exercise the
option or to issue a new contract to one of the two offerors determined to fall within the
competitive range. The solicitation stated that if a new contract was awarded, it would be
awarded to the offeror whose offer confonned to the solicitation and was deemed the most
advantageous to the Government, price and other factors considered. The solicitation
identified three factors (past perfonnance, price, and plan of operation) that the Government
planned to use to determine which offer provided the best value. Price was significantly less
important than past perfonnance, and the plan of operation factor was significantly less

                                                     12
                                    1'81t   81'1'1€1~     "S8J3 8Nh'j
important than price. The solicitation also included the following clause requiring offerors to
submit an LOA to demonstrate that the Government of Jordan had authorized them to
transport fuel through the country prior to contract award.

        An offeror proposing to import any products by ship into Jordan is required to obtain a
        Letter of Authorization (LOA) from the Government of Jordan's Ministry of Energy and
        Mineral Resources (MEMR). The Government of Jordan has stated that mUltiple LOAs
        can be issued and that an LOA will be issued only for known qualified companies which
        have good records with MEMR. An offeror must provide a copy of this LOA to DESC
        prior to contract award.




                                   Table 7. Responsibility Determination




On February 24, 2008, the contracting officer detennined after reviewing the final revised
proposals that it was in the best interest of the Government to exercise the existing option
under contract SP0600-07-D-0483 rather than to issue a new contract under the solicitation to
fulfill USCENTCOM's requirement for fuel routed through Jordan.

Price Reasonableness Determination. The contracting officer considered 10TC's prices fair
and reasonable because the option prices were evaluated under the solicitation issued for
contract SP0600-07-D-0483, pursuant to FAR I 5.404-1 (b)(2)(i).




DLA Energy Request for DCAA Audit of Awarded IOTC Contracts. On October 17,2008,
the DLA Energy Director requested DCAA to audit the contracts issued to 10TC to date and
stated that he was particularly interested in its conclusions related to the price reasonableness
of the contracts. In response to that request, the DCAA Director stated that:

       We are unable to perform the requested audit services because the contract[s do] not
       contain the contract clause that would permit DCAA access to the contractor's books and
       records (FAR 52.215-2 Aud it and Records-Negotiation). The only access clause in the
       contract[s] is for the Comptroller General and their designated representative which does
       not extend access rights to DCAA. By regulation, a firm-fixed price contract for the
       acquisition of commercial items under FAR Part 12 is not subject to DCAA audit.


                                                     13
                                    '8ft 8'Pl@IA"b        "8~    8N15Y
Consequently, DCAA is unable to audit contractors' proposals and subsequent contracts unless
the solicitation included the appropriate contact clause. Using some type of FAR Part 12
                                                      hybrid contract with the appropriate
                                                      clauses would have precluded these
   "... the contract[s doJ not contain the
                                                      problems. See the DLA Energy Used a
     contract clause that would permit                Questionable Commercial Item
  DCAA access to the contractor's books               Determination section (on Page 19) for
                and records . .. "                    more information.

In addition, DCAA generally will not accept requests for an audit on price reasonableness after
contract award because the prices are already agreed to and an audit would be of little value.

When contracting for both commercial and noncommercial products and services on the same
contract, DLA Energy should incorporate FAR Clause 52.215-2, "Audit and Records­
Negotiation," in the solicitation to provide for DCAA audit rights for the noncommercial
products and services being acquired.

#4 - Contracting Officer Determined Prices for Contract SP0600-09­
0-0515 Reasonable Based on Other Questionable Price
Comparisons
On December 23, 2008, DLA Energy issued the solicitation for contract SP0600-09-D-05l5.
DLA Energy received six offers in response to the solicitation. DLA Energy used the best
value source selection process to select the source to fulfill the fuel requirements covered by
this contract. The solicitation stated that the contract would be awarded to the responsible
offeror whose offer conformed to the solicitation and was deemed the most advantageous,
price and other factors considered. The solicitation identified three factors (past performance,
price, and plan of operation) that the Government planned to use to determine which offer
provided the best value. Price was significantly less important than past performance. Plan of
operation was significantly less important than price. The solicitation also contained the
following responsibility clause:

       (a) An offeror proposing to import any product by ship into Jordan is required to obtain a
       security clearance [formerly referred to as the LOA] from the Government of Jordan's
       Ministry of Energy and Mineral Resources (MEMR). An offeror must provide a copy of
       the approved security clearance issued by MEMR upon the request of the contracting
       offer and prior to contract award. In addition, an offeror must demonstrate to DESC its
       capability to provide storage in Aqaba. This capability is subject to review by
       MEMR ... .

       (b) These requirements are a precondition of award and any offeror who does not meet
       the requirements will be found non responsible and will be ineligible for award ...

According to the contracting officer, DLA Energy developed the requirements from
information that had been obtained from the Ministry of Energy and Mineral Resources.
Specifically, a January 22, 2009, letter that the Ministry of Energy and Mineral Resources sent
to the U.S. Embassy in Jordan delineated the following requirements that companies had to
comply with to use the Port of Aqaba for transporting oil.


                                                      14
                                    ..8M 8""I@II'!15       19S~   8!'H5Y
In a March 31, 2009, letter, the Secretary General of the Ministry of Energy and Mineral
Resources clarified the process for obtaining the security clearance for this contract.
Specifically, the Secretary General stated:

      I
      I
      I
      I
      I
IOTC - Only Responsible Offeror. However, as Table 8 shows, IOTe again was the only
offeror capable of fulfilling the responsibility requirements identified in the contract's
solicitation.
                             Table 8. Responsibility Determination




           I IOTC




                                              15
                               l*8"R   8l*l*I@Ir~   B§JiJ   8N~Y
the price it offered to supply the required fuel in its Best and Final Offer, while all the other
                                                           offerors lowered their prices. Table 9
      lOTe inexplicably raised the price it                shows IOTC raised the price it offered
                                                           to supply the required fuel in its Best
    offered to supply the required fuel for in             and Final Offer, while all the other
      its Best and Final OjJer, while all the              offerors lowered their prices.
        other ojJerors lowered their prices.

                        Table 9. Offerors' Per Gallon Proposed Fuel Prices




Price Reasonableness Determination. The contracting officer detennined IOTC's prices to
be fair and reasonable based on a favorable comparison to the competitively awarded contract
prices of the Operation Enduring Freedom (OEF) fuel supply contracts SP0600-07-D-I017,
SP0600-08-D-l 0 19, SP0600-08-D-0483, and SP0600-08-D-0484, as well as the prices being
paid under IOTC's current contract. Table 10 shows the prices that IOTC offered to supply
the fuel for this contract, as well as the contract prices for the various Operation Iraqi Freedom
(OIF)/OEF fuel supply programs as of December 1,2008, that the contracting officer used to
support the price reasonableness determination.

                     Table 10. Per Gallon Fuel Prices Used to Support Price 

                                 Reasonableness Determination 


    I                                                             II   Jet     II   Diesel   I    Gas     I
    I IOTC ProQosed                                               II       II
                                                                       $2.75         $2.49   II   $1.94 I
    I ComQarable Contracts                                        II       II                II         I
    I IOTC's Current Contract                                     II $2.82 /I        $2.7211      $2.18 I
    I Afg_~~istan-South (Contract 08-D-0483 and 08-D-04842        1/ $2.98 II        $3.21   II   $2.39 I
    I Af~hanistan-North ~Contract 08-D-lOl7 and 08-D-IOI92        II $3.12 II        $2.53   II    N/A I


In the price negotiation memorandum, the contracting officer stated:
        The competitively awarded, supply of fuel for Afghanistan does, however, provide
        comparisons to contracts of similar scope and risk to the operation contemplated in
        Jordan. Afghanistan has no refineries and very limited energy infrastructure, importing
        most, if not, all of its petroleum-based requirements by truck from sources originating
        outside the nation. In the Afghanistan programs, the suppliers are not able to rely on any



                                                16
                                     ¥8R 8¥¥I@liIm tiSt5 81thY
       US or local government subsidized infrastructure in the distribution chain. The existing
       infrastructure of terminals, railroads and roads, necessary for deliveries to Afghanistan
       throughout the regions north and south of it, does not meet Western standards. The
       transportation involves long distance, multi-day deliveries via trucks and, in the case of
       deliveries from the north, a combination of rail car, barge and truck movements. The
       Pakistani refineries and terminals of supply range from 300 miles (Rawalpindi) to 1,250
       miles (Karachi) from Kabul via Peshawar. The refineries that supply products from the
       north range from 960 to 1,400 combined rail and road miles from Kabul. Product from
       the north is all railed to the northern border of Afghanistan, where it is off-loaded from
       the rail cars into contractor-provide[d] storage from which trucks are loaded for the
       remaining 190-mile transfer to Kabul through the Salang Pass and tunnel, the shortest,
       available route. Product supply from the limited number of refineries closer to
       Afghanistan in Uzbekistan and Kazakhstan has not been available to the suppliers. In
       Afghanistan, as is the case in Jordan, all cost and performance risks of these complex,
       multi-faceted supply and distribution chains necessary for the performance of the
       contracts, as well as the financing of their entire operations, are borne by the contractors
       and must be contained in their contract prices. In the case of the Afghanistan supplies
       from the north, typically 12-18 million gallons of fuel is en route from the refineries to
       the delivery locations in Afghanistan at any point in time.

We question how comparable the prices paid under the OEF contracts really are to the prices
offered to perform under this contract. Although Afghanistan, like Jordan, has limited energy
infrastructure and all the costs and performance risk are borne by the contractors, the fuel
supply and delivery chains seem to require different levels of effort. The effort required to
fulfill the requirements of various OEF fuel supply program contracts seems less involved than
what the price negotiation memorandum described as required to successfully perform the
Jordanian fuel route requirements. Specifically, the price negotiation memorandum states:

       To supply [the Jordanian fuel route requirements] successfully over the entire length of
       contract delivery period, the contractor will have to carefully and continually orchestrate
       its own self-financed, long, complex, multi-faceted logistical fuel supply chain in
       accordance with the demands of the truck delivery orders placed by the US military ....
       This fuel supply chain must be capable of securing the necessary supplies of products,
       transporting those products via tanker cargos to Jordan (including paying for the cargos
       prior to delivering them to Iraq by truck only after which they will receive payment from
       [DLA Energy]), operating a terminal to receive the tanker cargos and subsequently
       loading the trucks for the convoys, managing the inventories of the three required
       products in its storage terminal; inspecting, sampling and testing the products in order to
       ensure the quality of the fuels throughout their logistics chain; and, arranging, organizing
       and supporting the large fleet of trucks and drivers needed to meet the schedule of
       convoys set by the US military escorts, and make the final deliveries from Jordan into
       Iraq. The estimated contract quantities are the equivalent of just over 35 250,000-barrel
       tanker deliveries into the contractor's storage terminal facilities over the 28-month
       delivery period. However, in all likelihood, due to limited storage volumes in the
       contractor's facilities and varying order quantities among the three products, a significant
       number of smaller deliveries by tanker will actually be necessary throughout the delivery
       period in order to continually keep inventories sufficient to complete upcoming convoy
       orders without suffering any inventory run outs.

       The truck convoy orders can consist of up to 2.5 million gallons of fuel (requiring
       approximately 255 fuel trucks), in addition to the required number of contractor recovery
       vehicles ("bobtails") at the prescribed ratio of one recovery vehicle for every 18 fuel
       trucks. A convoy begins crossing into Iraq from Jordan generally every four days under



                                                      17
                                    F81t    Sf'f'I(JI/~    "813 Snb1
                                                                          T
        the direction of the US military movement       control team and escorts and the Jordanian
        military liaison office at the Karama-Trebil    border. The trucks of a single convoy will
        typically cross the border into Iraq over a     two-consecutive-day period. Normally, the
        convoys are in Iraq for four to five days,      travelling from the border to the delivery
        locations before returning to Jordan ...

In addition, as Table 11 shows, the quantity of fuel being supplied under the various contracts
supporting OEF fuel supply programs is significantly less than the fuel that was estimated to
be needed to support the operation contemplated in Jordan under this contract.

  Table 11. Annual Fuel Requirements for Jordan and OEF Supply Contracts (gallons)

            I       Contract         II   Jet Fuel      II    Diesel      II    Gas        II     Total       I
            I Jordan                 II   145,971,428   II   10,950,000   II   2,738,784   II   159,660,212   I
             I Afghanistan          II                  II             ~I                  II              I
            II SP0600-0S-D-IOI7     II    64,800,000    II         NIA II           N/A    II   64,800,000 I
             I SP0600-OS-D-IOI9     II           N/A    II   4,250,000 II           N/A    II    4,250,000 I
             I SP0600-0S-D-04S3     I[     15,000,000   II   4,250,000 II       460,000    II   19,710,000 I
            I SP060Q.-OS-D-04S4     II    36,022,500    II        N/A II            N/A    II   36,022,500 I


The contracting officer also stated in the price negotiation memorandum that IOTC-proposed
prices were lower than what he considered to be the most relevant price guides, IOTC's prior
contract prices. Specifically:

       In comparison to the current IOTe contract prices for Jordan, the proposed JP8 [Jet Fuel]
       price under this solicitation is 7.2137 cents per gallon lower than IOTe's lowest,
       corresponding JP8 contract price, their offered price of DT2 is 23 .1302 cents per gallon
       lower than their lowest, corresponding DT2 contract price and their MUJ price is
       24.8246 cents lower than their current lowest, MUJ contract price. The proposed fixed
       margin f o    II three
                         r . roducts is                    to the lowest margins on the current
       contract of             (JP8),                (DT2) and              (MUllionthe basis
       of the total estImate proposal    ue,     proposed awar!!!e over                  million
       lower, or 3.1 % lower, than the current contract prices. IOTe's substantia experience
       with the unique costs and risks of this operation and the specific market
       environment in Jordan makes their prior contract prices the most relevant price
       guides available. Proposed prices from the two [not responsible] offerors, while lower
       than IOTe's prices, are not a basis for a reliable comparison with IOTC's prices.
       Neither of the two [not responsible] offerors has demonstrated experience with the type
       of work involved with this requirement for managing the complex supply chain
       necessary to bring fuel from Jordan to western Iraq. lemphasis added)

The contracting officer obtained a breakout of the various elements that made up the nonfuel
component oflOTC's proposed unit price. The solicitation value for the nonfuel                            ('{"\t"Ylnl.... n p


was about         million. However as Table 12 shows,
                                                 and most

~ificantly.
_             We did not      any             on        contract
contractmg officer evaluated whether the changes were appropriate. In fact, despite being
advised by DCAA before the issuance of the solicitation for this contract that, without the


                                                18
                                    '81t 8"I@l5tr~             l<JS~ 8N~Y
inclusion of FAR clause 52.215-2, "Audit and Records-Negotiations," DCAA could not access
IOTC's books and records to determine the reasonableness oflOTC's costs, the contracting
officer still did not incorporate the clause. Instead, the contracting officer stated, in the price
negotiation memorandum, that the nature ofIOTC's proposed prices "[were] such that they
[could] not be validated by the Government."

        Table 12. Difference From Previous IOTC Price Breakout (price per gallon)
                                 SP0600-04-D-                            Percent
           I. 0506
         Nonfuel Cost Element
  ~==~====~I ~J
   Transportation               .~




  I Financing




Again, we question the appropriateness of using the prices paid on previous IOTC contracts to
support a price reasonableness determination for this contract. The reasonableness of the
prices paid under all IOTC's previous contracts was based on the prices that the contracting
officer for the first contract could not conclude were reasonable.

Contracting Officer Did Not Obtain Cost or Pricing Data to
Establish Reasonableness of Offered Prices
The objective of proposal analysis is to ensure that the final agreed-to price is fair and
reasonable. The contracting officer is responsible for evaluating the reasonableness of the
offered prices. The complexity and the circumstances of each acquisition should determine the
level of detail of the analysis required. Generally, when adequate price competition exists, no
additional information is necessary to determine the reasonableness of price. However, the
contracting officer for IOTC's last three contracts did not identify that the unusual
circumstances surrounding the procurements dictated that cost or pricing data from IOTC and
appropriate field pricing support were needed to support the reasonableness of the agreed upon
prices.




                                           19
                                F81t 8FFI@IAIs      ~8fi)   8PlisY
DLA Energy Used a Questionable Commercial Item Determination
The contracting officer for laTe's last three contracts stated that DLA Energy had not
obtained certified cost or pricing data because the fuel and delivery services procured under
the Jordan fuel supply contracts were commercial items and, as such, met one of the
exceptions that prohibited DLA Energy from obtaining it. We find this conclusion to be
questionable. FAR subpart 2.10 I requires that for a product or service to be considered
commercial, it must be of a type customarily used by the general public or by
nongovernmental entities for other than governmental purposes and has:

           •   been sold, leased, or licensed to the general public;
           •   been offered for sale, lease, or license to the general public; or
           •   evolved or been modified from such products or services.

Although the fuel component of the price may satisfy this criterion, there is no commercial
market place for the delivery of a billion plus gallons of fuel into a war zone, and we question
whether laTe or any of the other offerors can show data for fuel delivery sales under
comparable terms and conditions to commercial customers for nongovernment purposes.
Under the circumstances, we believe it would have been more appropriate for DLA Energy to
have required the offerors to submit cost or pricing data to support the nonfuel cost elements.

In addition, we believe combining the delivery requirements with the fuel requirements comes
very close to constituting the minor modification of a commercial item but that does not
change the fuel to a noncommercial item. If combining the fuel and delivery requirements
constituted the minor modification of a commercial item, then certified cost or pricing data to
support the nonfuel components of the offered price would have also been required.
FAR subpart IS.403-1(c)(3)(iii)(C) provides that minor modifications ofa commercial item
are not exempt from the requ irement for certified cost or pricing data if the total price of such
modifications exceeds S percent of the total price of the contract at the time of contract award.
As Table 13 shows, the nonfuel component far exceeded the S percent of the total estimated
price for all the contracts awarded to laTe at the time of contract award.

                                      Table 13. Non-Fuel
                                    Estimated
                                  Contract Value
                                    $76,860,000
           I SP0600-05-0-0497        427,982,385
           I SP0600-07-0-0483       1,370,407,959
           I SP0600-09-0-0515       1,011,173,965
           I Total                $2,886,424,309


Therefore, if combining the delivery with the fuel requirements constitutes the minor
modification of a commercial item, DLA Energy should have obtained certified cost or pricing
data for the nonfuel cost elements.




                                            20
                                F8tt 8FFICI/!1S "819      8N~H
Contracting Officer Did Not Recognize that Unusual Circumstances
Required Additional Cost or Pricing Information be Obtained to
Support Price Reasonableness Determinations
At the very least, the contracting officer should have concluded that the unusual circumstances
surrounding this series of procurement actions dictated additional cost or pricing information,
and field pricing support was needed to determine the reasonableness of the offered prices.
According to the DF ARS Procedures, Guidance, and Information (PGI) 215.403-3, "Requiring
information other than cost or pricing data," when cost or pricing data are not required, the
contracting officer must obtain whatever information is necessary in order to determine the
reasonableness of the price. FAR subpart 2.101 defines this as "information other than cost or
pricing data." When the Truth In Negotiations Act does not apply and there is no other means
of determining that prices are fair and reasonable, the contracting officer must obtain
appropriate information on the prices at which the same or similar items have been sold
previously, adequate for evaluating the reasonableness of the price. Sales data must be
comparable to the quantities, capabilities, and specifications of the proposed product or
service. Sufficient steps must be taken to verify the integrity of the sales data, to include
assistance from the Defense Contract Management Agency, DCAA, and/or other agencies if
required.

However, the contracting officer for the last three contracts did not reach this conclusion
either. Instead, that contracting officer concluded that no additional support was necessary
because multiple offers were received in response to the prior solicitations. Therefore, in the
contracting officer's opinion, it was reasonable to conclude that IOTC had submitted its offer
with the expectation of competition despite IOTC being the only contractor ever to be found
responsible, the existence of indications that IOTC may have known that no other offeror
could meet the responsibility requirements contained in the various solicitations, and the fact
that all of IOTC's price reasonableness determinations were ultimately based on prices that
DLA Energy was unable to conclude were fair and reasonable. In addition, although the
contracting officer obtained a breakdown of the various elements that made up IOTC ' s
proposed jet fuel unit price for the last contract, the contracting officer concluded that their
nature "[wa]s such that they [could] not be validated by the Government" and never requested
any field pricing assistance.

DLA Energy Fuel Prices Tracked to IOTC Fuel Costs
The prices paid for a gallon offuel under these contracts were composed of two components:
the fuel (product) price and a fixed differential (or nonfuel) price. The product prices were
periodically adjusted (upwardly and downwardly) to protect the contractor and the
Government against · ificant economic fluctuations in the cost of the various fuels supplied
under the contracts.

                                    me         pact                   rcumstances surro      mg
      procurement actions and the contracting officer's failure to obtain cost or pricing data
and field pricing support had on the prices paid under IOTC's contracts.




                                           21
                                F81t 8FFI@b'l+J    l'J8~   8U13Y
Product Price. To evaluate the impact on product prices, we compared how much the
Defense Finance and Accounting Service paid IOTC for the jet fuel 7 delivered under contract
SP0600-07-D-0483 to the amount that IOTC paid its suppliers. In accordance with the
economic price adjustment clause contained in the contract, fluctuations in the U.S. Edition of
the Platt's Oilgram Price Report, Turbine Fuel Aviation, FOB Mediterranean Basis Italy
quotation caused adjustments to the stated contract jet fuel unit price every 15 days. As
Figure 2 shows, the adjustments made to the Government's price for jet fuel as a result of the
economic price adjustment clause contained in the contract SP0600-07-D-0483 tracked to
changes in IOTC's actual cost over the contract's 2-year performance period.
                       Figure 2. IOTC's Actual Cost for Jet Fuel Tracked to the
                        Price That DLA En      Paid for the Jet Fuel Delivered




In addition, as                                                          for the jet fuel delivered under the
contract was about                                                      more than the amount that IOTC paid
its suppliers. 

        Table 14. Difference Between the Price Paid for Jet Fuel and IOTC Actual Cost 

                                             Gallons           Fuel Cost         Percent Over
                                                                                 Contract Price
                      I Contract Price     286,789,441
                                           286,789,441


Thus, the adjustments made to the contract price for jet fuel as a result of changes in the
U.S. Edition of the Platt's Oilgram Price Report, Turbine Fuel Aviation, FOB Mediterranean
Basis Italy quotation did not result in IOTC being paid significantly more than its actual cost
for the fuel component of contract price.

7   Jet fuel constituted the bulk of the fuel supplied under the contract SP0600-07-D-0483.


                                                          22
                                         F'81t   8F'F'ICI~     (cJS"@   8N~Y
         Nonfuel Component of Price. It is difficult to assess the reasonableness of the nonfuel
         component ofIOTC's contract prices because DLA Energy did not obtain cost proposals from
                                                                offerors that separated the costs even
                                                                        the nonfuel costs rpn.rp"pnt
                     The nonfuel price . .. includes
                transportation, storage, fees, financing,
                   operations, overhead, and profit.
                                                                 impact on the nonfuel component of
         prices, we compared the amount that IOTe was paid above the various products' spot market
         prices to the amount that was evaluated during the price negotiations for contract SP0600-04­
         D-0506. As Table 15 shows the nonfuel           Ion price for lOTe's last three contracts
         ranged from                                   that was evaluated during the price negotiations
         and what appears                   on     constructed prices and may have resulted in lOTe
         receiving about $160 million more than what could be supported by price and cost analysis.
                                                      Table 15. Nonfuel Costs
                                                           Gallons                                          Difference from
                                                                                       II                 Evaluated Unit Price            !
     Contract                                  Quantity         II     Unit Price      II     Per Gallon        II       Total Value      I
     Jet Fuel                                                   II                     II                       II                        I
                                                    46,210,735 II             .:JI              .----.                           -----­   I
     SP0600-04-D-0506
                                                                                                                II
     SP0600-05-D-0497                              230,397,184 II             .-J~I                                          ~
     SP0600-07-D-0483                  I           285,070,435 II             .-J~I                                          ~
     SP0600-09-D-0515                 II            33,253, 140 II            .-J~I                                          ~
                                      II           594,931,494 II                 II                            II           ~
     Diesel                           II                        II                II                            II                        I
     SP0600-04-D-O 506                II             1,722,897 II             ..:JI             -----.-         II               -----­ I
I SP0600-05-D-0497                    II            15,101 ,490 II            .-J~I                                              ~
     SP0600-07-D-0483                 II            23,009,515 II             .-J~I                                              ~
     SP0600-09-D-0515                 II             6,944,257 II             .-J~I                                                ~
                                      II            46,778,159 II                 II                            II           ~
     Gasoline                         II                        II                II                            II                        I
     SP0600-04-D-0506                 II               -----­   II            ..:JI             -----­          II               -----­ I
     SP0600-05-D-0497 2               II             1 637,979 II             .-J~I                                              ~
     SP0600-05-D-0497 2               II                                      .-J~I
                                                     1,299,839
                                                                                                                                     ~
     SP0600-07-D-0483                 II             4,310,528                .-J~I                                                ~
     SP0600-09-D-0515                 II               614,391                .-J~I                                                  ~
                                      II             7,862,737                         II                       II               ~
     Total                            II                         I                     II                       II           ~
II     Nonfuel unit price that was evaluated during the price negotiations for contract SP0600-04-D-0506. 

     2 DLA Energy issued two modifications to contract SP0600-05-D-0497 that purchased gasoline at two different prices. 





        The price analysis that DLA Energy conducted for contract SP0600-04-D-0506 showed that
        the nonfuel component of the lOTe jet fuel w a s _ per gallon. Even though the

                                                                     23 

                                                  F81t    8FFI(J~\45 lcJS~          8N15¥ 

contracting officer was unable to detennine that IOTC total price was reasonable, the nonfuel
component of the price appears in line with the 69 cent per gallon average for the nonfuel cost
shown to be associated with the prices constructed from other com          Ie procurements
evaluated (see Table 3), especially after factoring in the                   fee that IOTC paid
its Jordanian partners, which then puts IOTC's price j                      the constructed
prices. We also question why the nonfuel fixed costs            come down on a per unit basis as
the estimated contract quantities increased. For instance, jet fuel increased from five to
sevenfold over the next three contracts. Often fixed costs, by definition, when spread over a
larger base, reduce per unit cost. Without additional data provided such as IOTC's experience
and any additional cost associated with its performance on previous contracts, it is hard to
justify the increases in the nonfuel component especially in the absence of the expectation of
two or more responsible offerors and already having an economic price adjustment existing for
the fuel component.

DLA Energy contracting personnel took exception to us using the evaluation of the breakout
of non fuel costs that IOTC provided because they insisted that the prices paid under the Jordan
fuel supply contracts were detennined to be fair and reasonable based on adequate price
competition. Therefore, at DLA Energy's request we also evaluated the nonfuel costs using
prices offered by other offerors. As Table 16 shows, the total price paid for the fuel purchased
under the IOTC contracts was about $204 million more than what the offerors that appeared
most likely to be awarded the contracts would have received were they able to obtain LOAs.

                   Table 16. Comparison to Other Offerors' Nonfuel Costs




                     46,210,735
                    230,397,184
                    285 ,070,435
                     33,253, 140
                    594,931,494



                     15,101,490    I                                                   $35,488,502   I
                     23,009,515 I                                                       66,267,403   I
SP0600-09-D-0515      6,944,257J                                                        17,291,200   I
                     46,778,159 I                                                     $119,047,105 t
Gasoljne                        II                II                                                 I
SP0600-04-D-0506        N/A     II                II
SP0600-05-D-0497      2,937,818'   II             II
SP0600-07-D-0483     4,310,528     I ~~
SP0600-09-D-0515       614,391     I r=-~
                     7,862,737
                                   II             I
Total                              II             II
                                   II             II


                                                       24
                                        F81t   8FFI@IA~     1981i! 8¥fl5Y
Using this approach, it appears that the nonfuel components of IOTC's prices are about
$204 million above what the other offerors proposed to charge. As a result, it appears that
IOTC received about $160 to $204 million (or 6 to 7 percent) more than can be supported by
cost or price analysis.

DLA Energy should have obtained some type of cost or pricing data and field pricing
assistance from either DCAA or the Defense Contract Management Agency to support the fair
and reasonableness of the offerors' proposed price to deliver fuel to the U.S. troops located in
Iraq.

Conclusion
Although numerous companies submitted proposals for the USCENTCOM's Jordan fuel
supply requirements, IOTC was only company capable of satisfying the responsibility
requirements included in the various solicitations issued for these contracts. Therefore, we
disagree that there ever was adequate price competition for these procurements. In addition,
although we question DLA Energy's claim that USCENTCOM's fuel delivery requirement is
a commercial item, DLA Energy still must evaluate the reasonableness of the offered prices.
There were numerous indicators that should have caused the contracting officer to conclude
that the unusual circumstances surrounding this series of procurement actions adversely
impacted the market forces and dictated that cost or pricing information and field pricing
support were needed to determine the reasonableness of the offered prices. This oversight
caused DLA Energy to pay IOTC about $160 to $204 million (or 6 to 7 percent) more for the
fuel than could be supported by either price or cost analysis.

DLA Energy Management Comments on the Finding and
Our Response
Specific Costs and Profit that IOTC Actually Incurred and Realized
The Commander, DLA Energy, stated that the draft report cannot address the allegation that
IOTC was a "war profiteer" because the DoD IG did not review the specific costs and profit
that IOTC actually incurred and realized.

Our Response
Although we were able to determine that IOTC's fuel costs were in line with the prices DLA
Energy paid for the delivered fuel, we were unable to determine whether costs for the nonfuel
component were fair and reasonable because the contractor was never required to provide cost
or pricing data. Without an auditable cost proposal, it was not possible to effectively identify
and evaluate actual costs incurred as they relate to proposed costs for the nonfuel components
of the price to determine whether prices were fair and reasonable.

Information Other Than Cost or PriCing Data
The Commander, DLA Energy, stated that the contracting officer should be credited for
obtaining "information other than cost or pricing data" for the 2004 and 2009 contracts.


                                               25
                                f8M   8ffI(JIA~5 ~SI9 8M~Y
Our Response
Although we did commend the contracting officer for the 2004 contract for her proposal
analyses techniques and efforts to reduce fuel costs to meet the urgent need for jet fuel sourced
through Jordan, she was unable to determine that prices were fair and reasonable even with the
information other than cost or pricing data. This should have indicated to DLA Energy that
there would be problems determining price reasonableness on future contracts even with
information other than cost or pricing data. In addition, the limited price breakout for the
nonfuel component that IOTC provided for the 2004 and 2009 contracts varied significantly as
shown in Table 12.

Commercial Item Determination
The Commander, DLA Energy, stated that the fuel on an FOB destination basis for delivery to
Iraq was a commercial item. Further, the Commander stated that commercial items are exempt
from cost or pricing data and that the FAR definition does not exclude items purchased in or
delivered to war zones. The Commander stated that "the determination of whether a product is
a commercial item is within the sound discretion of the contracting officer." The Commander
further stated that offerors including IOTC had to establish a supply chain that included
purchase, transportation, storage, loading, and unloading of the fuel and trucking the fuel to its
destination. Finally, the Commander stated that truck transportation was a commercial service
in Iraq even during wartime.

Our Response
As stated in the report, we do not believe there is an adequate commercial marketplace where
the market establishes prices by the forces of supply and demand for the packaged fuel
requirement. The packaged fuel requirement included the fuel products, transportation,
storage, loading, and unloading of fuel, and the trucking of fuel through Jordan with a Jetter of
authorization constraint for contract performance for the delivery of more than a billion
gallons of fuel into a war zone. As shown in the report, IOTC was the only source that could
meet the requirements; therefore, we disagree with the contracting officers' commercial item
determination because there was no commercial market supply/demand situation for the
packaged requirement to effectively evaluate price reasonableness. Further, by classifying the
packaged requirement as a commercial item, the contractor was not required to provide cost or
pricing data, and DCAA was unable to provide necessary audit assistance to support price
reasonableness.

Price Analysis
The Commander, DLA Energy, stated the draft DoD IG report incorrectly states that DLA paid
$160 to $240 million more to IOTC than could be supported by a price analysis. The
Commander also stated that using the lower proposed competitive prices was not appropriate
because the contracting officer determined the other offerors were not capable of performing
the contract and that IOTC cooperated with congressional investigators who concluded that
IOTC's profits over the duration of the contract "may have been 14 percent."




                                           26
                                F8ft 8FFI@IA+J ti81il    8N~Y
Our Response
We used two reasonable approaches to determine how much of the fuel costs were supported
by price analysis. It should also be noted that the original LOGCAP contractor received a
maximum profit of7 percent on its costs that it incurred for purchasing and supplying fuel to
the U.S. troops in Iraq in the early phases of combat operations. In addition, Chairman
Waxman, Committee on Oversight and Government Reform, U.S. House of Representatives
considered those fuel costs exorbitant.


Recommendations, Management Comments, and Our
Response
A. We recommend the Commander, Defense Logistics Agency Energy, require
contracting officers:

       1. When contracting for both commercial and noncommercial products and
services on the same contract, incorporate Federal Acquisition Regulation clause 52.215­
2, "Audit and Records-Negotiation," in the solicitation issued to provide for Defense
Contract Audit Agency audit rights for the noncommercial products and services being
acquired.

DLA Energy Comments
The Commander, DLA Energy, partially agreed. The Commander stated it was DLA's practice
and policy to include audit rights clauses for all products and services determined to be
noncommercial, but disagreed that any of the products and services procured under IOTC's
contracts were noncommercial items.

Our Response
Although the Commander partially agreed, the comments are nonresponsive. By classifying
the packaged fuel requirements as a commercial item, DLA Energy is unable to obtain cost or
pricing data and the audit assistance necessary to support the reasonableness of the agreed-to
prices. We request that DLA Energy reconsider its position on the recommendation and
provide additional comments in response to the final report on the commercial marketplace
that exists for the complete packaged fuel supply requirements as described in our response to
DLA Energy's comments on its commercial item determination.

       2. Obtain appropriate cost or pricing data and necessary field pricing assistance
to support price reasonableness determinations for proposed fuel prices in a contingency
operation environment when competition is questionable and a comparable commercial
market does not exist.

DLA Energy Comments
The Commander, DLA Energy, partially agreed. The Commander stated that DLA would issue
policy in January 2011 to implement agency-wide the provisions of the Defense Procurement
and Acquisition Policy Memorandum, "Improving Competition in Defense Procurements,"

                                         27
                               F8M 8FFI@J/lm "SF: 8PfhY
November 24,2010. The Commander further stated that DLA has placed a renewed focus on
obtaining the information needed to ensure that contract prices were fair and reasonable
consistent with Under Secretary of Defense for Acquisition, Technology, and Logistics
Memorandum, "Better Buying Power: Guidance for Obtaining Greater Efficiency and
Productivity in Defense Spending," September 14,2010.

Our Response
Although the Commander, DLA Energy, partially agreed, and issued the policy memorandum
on January 3, 2011, the proposed actions meet the intent of the recommendation, and no
further comments are required. However, ifDLA Energy makes the determination that the
packaged fuel supply requirement fulfilled under these contracts is a commercial product or
service, then DCAA cannot audit prospective offerors' cost proposals to support any price
reasonableness determinations. See our response to DLA Energy's comments on its
commercial item determination.




                                            28
                              ..8M: 8 ..FI(JVds   us~   8MbY
Finding B. Contractor Acceptance of Fuel is an
Inherently Governmental Function
DLA Energy contracting officers inappropriately used KBR, the Logistics Civil Augmentation
Program (LOGCAP) contractor, to accept about $859.8 million of fuel at Defense Fuel
Support Points at Al Asad, Al Taqaddum, and Victory Base Complex in Iraq. This occurred
because the DLA Energy contracting officer did not:

   • 	 assign "responsibility for acceptance" to either a contracting officer's representative
       (COR), a cognizant contract administration office, or to another agency;

   • 	 adhere to contract terms that required the use of a DD Form 250, "Material Inspection
       Receiving Report," to accept fuel by Government representatives; and

   • 	 negotiate a memorandum of agreement with the Army Sustainment Command (ASC)
       for the Government acceptance of the fuel that IOTC delivered to the DLA Energy fuel
       support points being operated by KBR under the LOGCAP contract where the Army
       thought the fuel supplied by IOTC was Government property.

As a result, KBR was allowed to accept fuel under the LOGCAP contract, an inherently
governmental function. Our reconciliation of the records for two of those fuel support points
identified only minor variances between the quantity of fuel accepted by KBR and the quantity
of fuel that IOTC was paid for; however, fuel is a high-risk commodity, analogous to cash,
requiring stringent control procedures.

Guidance
See Appendix E for FAR and DFARS guidance on acceptance, contracting officer's
representative's responsibilities, and inherently governmental functions.

DLA Energy Used IOTC Contracts to Supply Fuel Through
Jordan to Various Locations in Iraq
According to DLA Energy representatives, the Army was having difficulty accounting for its
fuel in Iraq and requested assistance from DLA. To fulfill that request, the representatives
stated that the Director, DLA, instructed DLA Energy to provide management and oversight
for the fuel being supplied to the U.S. troops operating in Iraq. For the period covered under
contract SP0600-D-07-0483 (July 2007 to August 2009), DLA Energy had capitalized (or
taken over the ownership of) the fuel located at three Defense Fuel Support Points. According
to information extracted from the Defense Finance Automated System, the Defense Finance
and Accounting Service paid IOTC more than $1.1 billion to deliver fuel to various locations
in Iraq under that contract.




                                              29
                               F8:1t 8FFIOV.d5     'S8~   8PfJsY
As Table 17 shows, more than 75 percent of the fuel (by dollars) was delivered to fuel support
points where the responsibility for the ownership of the fuel had already transferred to
DLA Energy.

             Table 17. Percent of Fuel Delivered to Each Type of Site Under 

                              Contract SP0600-D-07-0483 


                                Type of Site
                                             II 	 Fuel Cost I              Percent
                                                                                     I
                       Capitalized           II 	                                    I
                       Al Asad           -.-JI    $599,717,364                       1
                       Al Taqaddum •         II 204,784,936                          I
                       Victory Base Complex II 	 55,310,121
                                                                                     I
                       Subtotal              II 859,812,421 II                76.81
                       Noncapitalized        II 	                II                  I
                       AI Taqaddum •         I     225 ,690,836  I                   I
                       Korean Village               33,171,691 	 II                  I
                       Trebil                              641 ,755   II             I
                       Subtotal                        259 z504,282 	 II      23.21
                                                                      II             I
                       Total                    II$1,119,316,703      II100.0        I
                       "DLA Energy capitalized AI Taqqadum on June 1, 2008.          I
Contractor Employees Performed Inherently Governmental
Functions
DLA Energy used KBR, the LOGCAP contractor, to manage its capitalized Defense Fuel
Support Point operations. ASC provides a wide range oflogistics support to DoD ' s combat
operations including field support, materiel management, Army pre-positioned stocks, and
contingency contracting. At DLA Energy's request, ASC tasked KBR to manage the fuel
support points that DLA Energy capitalized in Iraq. Specifically, KBR provided the following
support at the DLA Energy-capitalized Defense Fuel Support Points as a part of the tasks it
performed under contract DAAA09-02-0007 task orders 139 and 159.

              9.7. CLASS III BULK (B) OPERATIONS. The contractor shall establish,
              operate, and maintain 24 hours a day 7 days a week, a Class III (B) supply
              point consisting of fabric collapsible tanks or above-ground hard wall storage
              tanks physically capable of receiving, storing, (on the ground) and issuing
              [fuel). ..The contractor shall manage Class III Bulk sites in country and
              shall perform quantity accountability and determinations on all transfers,
              receipt, storage, and issue of product IAW [in accordance with)
              DoD4140.25 and DESC Interim Policies and Instructions.

              9.7.1.1. The contractor shall sample and test all Tank Truck (TT) receipts
              from DESC Direct Delivery (PC&S) and Bulk Delivery contracts prior to
              off-loading products, using appropriate equipment and methods, lAW
              MIL-STD-3004A, Quality Surveillance for Fuels, Lubricants, and Related


                                               30
                                   F81t 8FFI€lJIm "BE 8Nh'f
                    Products, applicable Defense Energy Support Center (DESC) and Army
                    regulations and standards. The contractor shall meter fuel while off-loading



                    9.7.1.3. The contractor shall accept product deliveries when test results are
                    within contract specification limits, or Intra-Governmental Transfer Limits
                    if transferred from Government owned stock, without further delaying
                    discharge. (empbasis added I

As Figure 3 shows, DLA Energy contracting officers inappropriately used KBR, the LOGCAP
contractor, to accept the fuel that IOTC delivered to three Defense Fuel Support Points that
DLA Energy capitalized. Accepting fuel is an inherently governmental function.

                       Figure 3. DLA Energy Capitalized Fuel Support Points: 

                                  Acceptance and Payment Process 



                          I     Copy (1)                                                            DFASEnters
                          KBR Employee
                         Records Fuel Data       f---+
                                                         IOTC Creates
                                                         Invoice Based
                                                         on Acceptance
                                                                              Sends
                                                                       ---+ Invoice to
                                                                                         h
                                                                                         I
                                                                                                     Invoice into
                                                                                                    Defense Fuel
                                                                                                     Automated
                                                                                                                     I


    KBR Employee                                                              DFAS
                         on IOTC Created                     Fonn                                   Management
    Off-Loads and   ~
                         Fuel Delivery and                                                        System (DFAMS)
     Meters Fuel
                         Acceptance Fonn     -
                             Copy (2)
                                                                                                          ~
                                                                                               Analysis by DLA
                                                                                                Energy-ME for
                                                     KBR Employee Enters                      Differences Between
                                                      Fuel Data into Fuels                     DFAMS and Fuels
                                                    Automated System (FAS)                     Automated System
                                                                                               Enterprise Server
                                                                                                     (FES)
                                                                                                         ~


                                                                                         I   No      I         I    Yes    I
                                                                                             •
                                                                                         fDFASpaysl
                                                                                            IOTC
                                                                                                                     ...
                                                                                                              Create Penalty
                                                                                                              Repot if Errors
                                                                                             t                       +
                                                                                                               If Errors DLA
                                                                                      Corrective
                                                                                                                   Energy
                                                                                     Action Taken
                                                                                      and Errors
                                                                                                         .-   Investigates and
                                                                                                                 Corrective
                                                                                      Corrected
                                                                                                               Action Taken


Under the terms of its task orders, KBR tested all fuel delivered prior to its off-loading using
appropriate equipment and method s. If a product did not meet specifications, the vendor
delivery was rejected. If the product met specifications, KBR metered and recorded the fuel
off-loaded from IOTC's tanker trucks on an IOTC-created fuel delivery and acceptance form. 8

8   See Appendix G for copy of the IOTC-created fuel delivery and acceptance form used to accept fuel.


                                                   31
                                       F8R 8FFI(JIA.J5             -.,S~ 8N~li
IOTC created and sent its invoices from the first copy ofthe form to the Defense Finance and
Accounting Service where it was entered into the Defense Fuel Automated Management
System. A KBR employee entered the quantity of fuel accepted from a second copy of the
form into the Fuels Automated System, which fed the fuel receipt data through the Fuels
Automated System Enterprise Server to the Defense Fuel Automated Management System to
                                                 certify the accuracy of IOTC's invoices. The
     Acceptingfuel is an inherently              KBR employee then forwarded the form to
         Governmental function.                  DLA Energy-Middle East. The Defense
                                                 Finance and Accounting Service payment
system automatically made payment to IOTC for all invoices whose data matched the
information entered by the KBR employees. A Penalty Report was created showing the
invoices whose data failed to match the information input by KBR. A DLA Energy-Middle
East employee investigated and corrected the issues that caused the discrepancies. After the
corrective measures were implemented and fuel acceptance data matched the invoices, the
Defense Finance and Accounting Service paid IOTC.

To assess the accuracy of the fuel receipt data that KBR entered into the Fuels Automated
System, we compared the quantity of fuel that the End-of-Month Operating GainILoss
Computation Report showed that Al Asad and Al Taqaddum received each month to the
quantities that the Defense Fuel Automated Management System showed that IOTC was paid
for. As Table 18 shows, we found less than 1 percent difference between the quantity of fuel
that the report showed KBR received versus the quantity of fuel that IOTC was paid for.

    Table 18. Quantity of Fuel Purchased Compared to the Quantity of Fuel Accepted

                           II               Gallons                II        Diffe rence              I
                           II    Received      II   Purchased           Amount              Percent   I
             AI Asad       II                  II                                                     I
             Jet Fuel      I    147,875,337    II   147,823,181         52,156               .0004    I
             Diesel               7,658 ,309   II      7,606,212        52,097               .0068    I
             Gasoline             2,317,010    II      2,307,524    I    9,486      I        .0041    I
             AI Tagaddum                       II                  II               II                I
             Jet Fuel       I    33,865,620    II     33,896,778   /I   (31,158)            {.0009)   I
             Diesel
             Gasoline
                           II
                           II
                                  2,927,482
                                   535,316
                                               II
                                               II
                                                       2,938,548
                                                        535,224
                                                                   II
                                                                   II
                                                                        (11 ,066)
                                                                            92
                                                                                    "IIII   (.0038)
                                                                                             .0002
                                                                                                      I
                                                                                                      I
                Total      II   195,179,074    II   195,107,467    II   71,607      II      .0004     I
Contracting Officers Neglected Responsibility for Fuel
Acceptance
DLA Energy contracting officers neglected their " responsibility for acceptance." They did not
accept IOTC's fuel themselves, designate qualified individuals to act as their authorized
representatives to accept the fuel , or assign the responsibility to a cognizant contract




                                              32
                                  '8ft 8ff'1@1A+J         ~81S     8NhY
administration office or ASC, the organization that issued the LOGCAP contract. The
contracting officers chose to retain the contract administration function for the Jordan fuel
supply contracts and stated that the responsible officers (ROs) managing the energy accounts
at the fuel support points that DLA Energy capitalized were accepting the fuel delivered by
IOTC. However, we did not find any documentation in the contract file to corroborate that the
contracting officers had delegated that authority to the ROs. In addition, even if the
responsibility for accepting fuel had been properly assigned to the ROs, duly appointed ROs
were not always present at the fuel support points that DLA Energy capitalized (see Figure 4).

                                 Figure 4. Timeline of Responsible Officer Appointments

                 7f27nOO7            7f27ll007               ~7!lOO8                                                     9!112OO9
           I!.O Q) SlBt DoIr I      ItO (I) Ead 1'* I         Stat                                                            Ead




              YII2OO7                                                                                                          PlII2OO9




    AI
  T~                                                                                          i
                                                 IflJ200I                                  lI1!2OO9
             IDI2OO7                                                                                                          91112009



                                                  4I1J2OO1         7I141lOO1
                                                 DU &aJr        ItO Stut DIlle I


  \~·I~_________C_::::_
                  · ~·:::'_
                      - _::~~___~+-______~i__________~
                                                 lflJ200l                                  1/lJ2OO9
             51112007                                                                                                         91112009

   'Data pan only ntc;Dsa start or end daIlI rue 10 ilcuf4WW noonatiOn I'rom RO appoi$•• illlilllrS prOVtiId bV DlA EhIfgy.

    2 AI   Asad . . ~ prior 10 corrIrad start claIR.




DLA Energy appears to be confusing the difference between receiving and acceptance.
DLA Energy Policy Number DESC-P-7, "Accountability and Custodial Responsibilities for
Defense Working Capital Fund (DWCF) Inventory and Government Property," states that ROs
"provide diligent care, custody, and protection of Government property," but they do not
accept property for the Government. ROs could have been used to accept IOTC's fuel, if they
met all of the COR requirements and were appointed and specifically authorized to perform
that task by the contracting officer. However, as stated previously, we found no
documentation to support that the contracting officers had delegated that authority to the ROs.
Further, the acceptance documentation for the 197 deliveries made to Al Taqaddum between

                                                               33
                                                    F81t 8J?PI@VlIs 19"5B 8NIsY
May 2008 and February 2009 did not support that the ROs actually accepted the fuel delivered
by IOTC.

Based on the infonnation that was shown on the IOTC fuel delivery and acceptance forms,
KBR accepted IOTC's fuel on behalf of the Government. The only infonnation shown on the
fonns was the detailed data relating to the fuel off-loaded from IOTC's tanker trucks, a KBR
employee signature and badge number, and a stamp verifying the authenticity the fonn . No
Government representative validated the accuracy of data that the KBR employees recorded
despite it being used to validate the accuracy of the invoices submitted by IOTC for payment.
According to DLA Energy personnel , DLA Energy never established a process to verify that
the ROs were perfonning the acceptance function at capitalized fuel supply points.

Our reconciliation of the fuel acceptance and payment records for two of those sites did not
identify a significant variance between the quantity of fuel accepted by KBR and the quantity
of fuel that IOTC was paid for; however, fuel is a high-risk commodity, analogous to cash,
requiring stringent quality control procedures.

If DLA Energy is going to use ROs at its capitalized fuel sites to accept fuel delivered
FOB Destination, its contracting officers need to designate and authorize those individuals to
perfonn those tasks in writing and ensure that they are qualified and receive the requisite
training to perfonn those tasks.

Contract Requirements for Fuel Acceptance Not Followed
DLA Energy contracting officers did not adhere to contract terms that required DD Fonn 250,
"Material Inspection Receiving Report," be used to accept the fuel delivered under contract
SP0600-D-07-0483. Even though the contract included the following clauses that require the
use ofDD Fonns 250, the contracting officer allowed an IOTC-created delivery and
acceptance fonn to be substituted to accept fuel.

       E40 Material Inspection and Receiving Report (MAR 2003)
       (a) At the time of each delivery of supplies or services under this contract, the
       Contractor shall prepare and furnish to the Government a material inspection and
       receiving report [Form DO 250] in the manner and to the extent required by
       Appendix F, Material Inspection and Receiving Report, of the Defense FAR
       Supplement.


       G150.05 Submission of Invoices for Payment - Commercial Items (Bulk) (DESC
       APR 2006)

       (a) Certification of Receipt.
       (1) F.O.B. Destination Deliveries.

       (i) The Quality Representative (QR) or authorized receiving activity personnel will
       certify the receipt and forward three copies to the appropriate paying office. If the
       receiving activity is not a U.S. organization, the authorized U.S. representative, as
       indicated in the SlOTH, will certify and distribute the receiving documents. One of the
       copies of the receiving report submitted for payment must contain the original signature
       of the QR and will have the following information stamped, printed, or typed on it:


                                              34
                                    F8M 8FFI(JVm         ~8E    Slthlj
       "ORIGINAL RECEIVING REPORT FOR PAYMENT OF INVOICE". The receiving
       report must be signed by the QR to certify acceptance of the product prior to
       submission of the receiving report to the paying office.

       (ii) The receipt for f.o.b. destination fuel may be one of the following documents:

             (A) The DD Form 250, Material Inspection and Receiving Report; (Emphasis
             Added)


DFARS Appendix F states the DD Form 250 is a mUlti-purpose report used:

             (I) To provide evidence of Government contract quality assurance at origin or
             destination;
             (2) To provide evidence of acceptance at origin or destination;
             (3) For packing lists;
             (4) For receiving;
             (5) For shipping;
             (6) As a contractor invoice; and
             (7) As commercial invoice support.

       The contractor prepares the MIRR, except for entries that aD authorized
       Government representative is required to complete. The contractor shall furnish
       sufficient copies of the completed form, as directed by the Government representative.
       [emphasis addedJ

Had DLA Energy adhered to the contract terms that required DD Forms 250 be used to accept
fuel, the ASC shouJd have detected that the KBR was inappropriately performing an inherently
government function by accepting the fuel delivered by IOTC. The DD Form 250 would have
shown the fuel shipment terms were FOB Destination and that Government acceptance was
required. In addition, the DD Form 250 has a clearly defined place for a Government
representative at the destination point to certify acceptance of the fuel. See Appendix H for a
copy of a DD Form 250, "Material Inspection Receiving Report."

DLA Energy needs to comply with the acceptance documentation requirements identified in its
contracts.

DLA Energy and Army Sustainment Command Did Not
Establish a Memorandum of Agreement
DLA Energy contracting officers also did not negotiate a memorandum of agreement with
ASC for the Government acceptance of the fuel being supplied by IOTC as FOB Destination
at the DLA Energy fuel support points being operated by KBR. ASC representatives stated
the Command believed that all the fuel that DLA Energy was supplying was already owned by
the Government. The task order statement of work required the Government to furnish the
fuel to KBR as government-furnished property. Specifically, Section 3.5 of task order's
statement of work states:

       3.5. The Government will furnish the following equipment or material as GFE
       [Government Furnished EquipmentJlGFM [Government Furnished MaterialJlGFP
       [Government Furnished Property], or other GFE/GFMI or GFP as available.


                                                   35
                                    1*8~   81*1*1@11\45    \9'S~ 8N~ll
        3.5.1. Fuel. (JP8 [Jet Fuel], Jet-AI [Jet Fuel], DF2 [Diesel], and MOGAS [Gas))
        [emphasis added]

Based on that clause, the ASC representatives stated that they believed IOTC's fuel was being
delivered FOB Origin where its ownership had already transferred to the Government and
KBR was just receiving government-furnished property, as was the case with the fuel
DLA Energy was providing through its Kuwait and Turkey fuel supply routes. Further, they
were unaware that DLA Energy was relying on KBR's metering of IOTC's fuel deliveries for
accepting IOTC's fuel for the Government. DLA Energy should have informed ASC that the
fuel supplied under IOTC's contracts were FOB Destination and entered into a memorandum
of agreement that required Government employees be used to accept the fuel delivered by
IOTC.

Conclusion
Contractor surveillance by contracting personnel under contingency conditions may be
difficult due to ongoing military operations, local threat conditions, remote location, broad
customer base, and the performance and delivery time involved. DLA Energy's contracting
officers were responsible for deciding if they needed an individual to serve as their authorized
representative and should have delegated specific authority to a COR to perform the
acceptance function. Although a contractor may be used to receive shipments of
Government-owned fuel, it may not be used to accept title on behalf of the Government.
                                                    It is important to establish a properly trained
   Although a contractor may be used                cadre of CaRs within the organization's
                                                    major customers supported. CaRs are
   to receive shipments ofGovernment
                                                    qualified individuals appointed by the
     owned fuel, it may not be used to              contracting officer to assist in the technical
         accept title on behalfofthe                monitoring or administration of a contract.
                  Government.                       Contracting officers are responsible for
                                                    deciding if they need an individual to serve
                                                    as their authorized representative.
Contracting officers must delegate specific authority to the COR to perform the technical or
administrative functions needed to ensure that the contractor provides quality products and
services according to their contracts. Contracting officers should work closely with requiring
activities to ensure the activities nominate individuals to serve as CaRs who have the essential
qualifications to effectively perform the assigned functions.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Commander, Defense Logistics Agency Energy, require that
contracting officers:

       1. When using Free-On-Board Destination-type contracts at contractor-run
Defense Logistics Agency Energy capitalized fuel support points, either appoint a
contracting officer's representative to perform the acceptance function, assign the
responsibility to the Defense Contract Management Agency, or enter into a documented

                                                36
                                 F8R   8FFI@I/~ ~S~        8l'fhY
agreement with the organization overseeing the fuel support point contractor that
requires that only Government employees accept the fuel.

DLA Energy Comments
The Commander, DLA Energy, partially agreed. The Commander recognized that acceptance
is an inherently governmental function, but disagreed DLA had control over the fuel receipt
function in Iraq. The Commander stated that in the case ofIOTC's contracts, the Army, not
DLA, made the decision to rely on the Army support contractor to receive fuel. The
Commander further stated that 000 Directive 4140.25, "000 Management Policy for Energy
Commodities and related Services," April 12,2004, places substantial responsibility for
receipt of fuel on the combatant commanders and the Military Services. The Commander
added that DLA is currently examining options for ensuring compliance with the requirement
that fuel acceptance be performed by Government personnel and will take steps to ensure that,
when Government personnel are designated to perform the acceptance function, it is
Government personnel performing that function and not contractor personnel.

Our Response
Although the Commander, DLA Energy, partially agreed, the comments are nonresponsive.
DLA Energy is confusing the requirements for receipt of Government-owned fuel with
accepting title or taking ownership of the fuel on the behalf of the Government from a
contractor. The FAR governs the Government's acceptance or rejection of contractor products
and services and places this responsibility solely on the contracting officer. 000 Directive
4140.25, section 5.1.8.1, identifies DLA as the organization that is responsible for petroleum
integrated-materiel management including: procurement, transportation, ownership,
accountability, budgeting, quality assurance, and quality surveillance. Sections 5.4.2, 5.4.5,
and 5.5.1 cited by the Commander only discuss the receipt of Military Service and DLA­
owned fuel, not its acceptance. Therefore, it was logical for the Army to believe the fuel that
IOTC was delivering had already been accepted by DLA Energy personnel and was
Government-owned property. We request that DLA Energy provide additional comments in
response to the final report on the steps its contracting officers will take to comply with the
acceptance requirements outlined in the FAR and ensure that only Government personnel duly
appointed by the contracting officer perform the acceptance function when using Free-On­
Board-Destination-type contracts at contractor-fun DLA Energy-capitalized fuel support
points.

       2. Develop procedures to ensure that the acceptance documentation
requirements identified in its contracts are complied with.

DLA Energy Comments
The Commander, DLA Energy, agreed and stated that DLA will ensure that future solicitations
reflect receipt and acceptance procedures in effect during the performance of the contract.

Our Response
Although the Commander, DLA Energy, agreed, the comments are nonresponsive. They do
not address the specific procedures that will be developed and used to ensure that the fuel


                                          37
                               1"81t 8I"H@Vds 8813 8NIsY
acceptance documentation requirements identified in DLA Energy's fuel supply contracts are
complied with during contract performance. We request the Commander provide additional
comments in response to the final report that describe the specific procedures that will be used
to ensure that the fuel acceptance documentation requirements identified in DLA Energy's fuel
supply contracts are complied with during contract performance.




                                           38
                               F8tt 8FFI@11YE "SIS 8NIsY
Appendix A. Scope and Methodology
We conducted this performance audit from July 2009 through September 2010 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our review focused on DLA Energy's decision to award IOTC a series of contracts for the
delivery of fuel through Jordan to U.S. troops in Iraq. Specifically, we determined whether
prices paid were fair and reasonable, whether an exclusive supply arrangement had an impact
on prices, and whether the fuel needs to be suppJied through Jordan. During our initial
fieldwork, we discovered conditions that caused changes in our audit objectives. The
conditions discovered prompted us to perform a review of the internal controls related to the
receipt, acceptance, invoicing, and payment process and procedures for the delivery of fuel.
The team also gathered and reviewed documentation concerning the four fixed-price fuel
supply contracts that DLA Energy issued to IOTC from June 2004 to February 2010 with an
estimated total value of about $3.1 billion from the following organizations:

   •   Defense Finance and Accounting Service (Columbus, Ohio),
   •   Defense Logistics Agency (Fort Belvoir, Virginia),
   •   DLA Energy - Retail Management Division (San Antonio, Texas),
   •   United States Central Command Joint Petroleum Office (MacDill APB, Florida),
   •   DLA Energy - Middle East (MacDill AFB, Florida), and
   •   Army Sustainment Command (Rock Island, Illinois).

Last, we met with representatives oflOTC to obtain pricing data for fuel supplied under DLA
Energy contract number SP0600-07-D-0483.

Use of Computer-Processed Data
We used computer-processed data produced by from the Defense Finance and Accounting
Services Defense Fuel Automated Management System. We used the data to determine
whether IOTC was being paid the correct amount for fuel that they delivered. To verify the
reliability of that information, we compared the amount paid to IOTC in the Defense Fuel
Automated Management System to the amounts on the IOTC payment vouchers. Nothing
came to our attention as a result of performing these comparisons that caused us to doubt the
reliability of the computer-processed data obtained from the Defense Fuel Automated
Management System. Therefore, we determined that the data were sufficiently reliable for the
purposes of our report.




                                           39
                               F81t 8FFICI:A+J    tiS~ 8N~Y
Prior Coverage
The Department of Defense Inspector General (000 IG), DCAA and GAO have issued
three reports discussing internal controls over payments made in Iraq and fair and reasonable
pricing of fuel. Unrestricted 000 IG reports can be accessed at
http://www.dodig.millauditlreports. DCAA reports are issued at the sole discretion of the 000
contracting office. The GAO report can be accessed at the
http://gao.gov/docsearch/repandtest.html.

DoDIG
000 IG Report No. 0-2008-098, "Internal Controls Over Payments Made in Iraq, Kuwait, and
Egypt," May 22, 2008

DCAA
Audit Report No. 3311-2004KI7900055, "Report on Audit of Proposal for Restore Iraqi Oil
Task Order No.5," October 8, 2004

GAO
GAO Report No. GAO-l 0-357, "Contingency Contracting, Improvements Needed in
Management of Contractors Supporting Contract and Grant Administration in Iraq and
Afghanistan," April 12, 2010




                                         40
                              P81t 8PPI(JVm USI9 8l'fbY
Appendix B. Congressional Request 


  ......
  IWOU'tIUCITOIlINI, treW"'OPIl

  CMQ:nc ..
           - ~.......,..         .....                                                                    ""'-­
                                                                                                             """'tG~~
                                                                                                          ONfWUlltcll...:wcA
                                                                                                          a.wr.........YWI.
 ~tlQJl
                                                                                                          .DeI"'~r6Wl'OM

                                                            of tbt I1nittb 6tatt.
               ~._WIM
  ~ ". CI.M8CS.~
  CIDNI ,J. IiOJCNCM. fIN)
  1:iIIWf!'" 0tMI. Q.N,)e
                                          ~ongrt••                                                        ..u.1,..lCA.kOIII».
                                                                                                          ......_WCUCiP..1II;IlIIIrHo\
                                                                                                          fOCID...u. ,,-,,"&""""'fNM
  .ow'1IEfIIrEY. ~                                                                                        CHI!IONOt.u,,,,
                                                                                                          . . . . J.           . .. _ _ _
                                                     ~~


                                                                                                          -..._-
                                                              of I\tprtlmtatibti
                                                                                                                       ~
  1M. LoIG'I'Q.Ay• . . . " , .


  ...............
  DWII ........... ~                                                                                      ~iIl~otO                        





            ---
  1tVI411i'. L'IIICH,~                                                                                    DNtRII.L E... - ' " QIdQIINt.
                        ~                                                                                 ...,., 1IWiIQ¥.\" fIIIM 

  .oft It. v........ 1IDftUOIY            COMMIT'Te ON OVERSIGHT AND GOVERNMENT REFORM                    l .....................GBKM 

  IRI.QL. IIW,I'(. " " "                                                                                  MfIIIOC , . .......... .,..". c:MICIUM


  .........
    D5T""''''~
                                                    2157 RAYBURN HousE 0mcE BuLoING                       'tIIfIII»M'c»cx.!CJfImo~
                                                                                                          ..... ,. -.aM,..CM.~
                                                                                                                ...........

  ...
                                                              - ....­
  K'rTYUI:;COUJ.M,.....,..A
     """""'~                                            WASHNGTON, DC 20515-6143
  DIM  WIN HCUDI, MotfM.NC)
  MJ..w.NCGDr,NlW.......... 





  --""-'­
  ~ .. ~' CXIMCCI'OIf                                         '~_JK...G14
  .JOeri,. ~1M1fMNC)                                          ~.,..tRI!IZK-I'iIl'''
  N'fS.-..c...~
                                                            _ .CMnIg/II._.p

                                                             October 16,2008

                   The Honorable Robert M. Gates
                   Secrelary
                   U .S.~tofDef~
                   1000 Defense Pentaaon
                   Washington, DC 20301

                   Dear Mr. Secrelary:

                          Last week, officials from the Defense Energy Support Ccnler briefed Committee staff
                   about allegations that the International Oil Trading Company (IOTC). which is oWDCd by Hany
                   Sargeant, be been overcbarailll the U.S. government under contracts to deliver fuel through
                   Jordan into 1'nIq. If this bridiDg and the documents reviewed by the Committee are 8CClIJ1Ite, Mr.
                   Sargeant's company appears to have engaged in a reprehensible form of war profiteering.

                           Over the last four years, IOTC has been paid over $ 1.4 billion by U.S. taxpayers 10
                   deliver fuel throUih Jordan into 1l11li and has earned a profit of over S21 0 millioo. According to
                   intemal Defense Deputmcnt documents, the prices IOTC bas charJed the government are not
                   "fair and reasonable." A "price negotiation memonmdum" assessio& the company's June 2004
                   contract concluded tbal the price charged by IOTC, S2.1 0 per gallon o{jet fuel, was at least 36
                   cents per pilon too bigh, even takioS into account transp0118tioo, storage. and other exJlCllSCS.

                          Other contractors offered to deliver fuel at lower prices. When the Defense Department
                  awarded IOTC the June 2004 contract, JOTC was the highest bidder of six offers, with lID initial
                  bid over twice as high as the lowest offer. None of the five lower bidders were awarded the
                  contract, however. because they were unable to obtain a "letter ofauthorization" to transport fuel
                  from the Jordanian government. As a March 2004 "Preaward Survey" reported. IOTC's "major
                  strength is the backing of the Royal,Family." In effect, this backing gave l<Yrc a monopoly 00
                  the delivery of fuel through Jordan.

                          Mr. Sargeant IDd IOTC appear 10 have taken fulJ advantage ofthcir ties to the Jordanian
                  royal family. Uoder federal procurement law. it is illegal to award a contract to a company
                  whose prices are not "fair and reasonable." Senior officials in the Defense Energy Support
                  Center (DESC) twice made personal appeals to Mr. Sargeant to lower his $2.10 per gallon price,
                  but Mr. Sargeant refused. The price DCsotiation memQrandwn described one of these appeals:




                                                          41 

                                               F8ft 8FFI@IRh toJS@                    8N~Y      

The Honorable Robert M. Gates
October 16, 2008
Page 2

       [The DESC division chief] asked Mr. Sargeant ifthcre was any wayl0TC could reduce
       the offered price. Mr. Sargeant advised that the offered price was as low as they could ao
       and still insure proper perfonnance.• ,. Mr. Sargeant was also advised of the possible
       public scrutiny associated with the award price in light oftbe recent controversy over fuel
       prices paid by KBR from Kuwait. Mr. Sargeant is aware of this risk and is comfortable
       that their price accUl1llcly reOe.cts IOTe's cost of perfonnance.

         According to the documents provided to the Committee, U.S. Central Command was
advised of IOTC's unreasonable prices but "maintained an maent need for JP8 Uct fuel) IOW'CCd
throu&h Jordan." For this reason, "the IOTe pricing issue was elevated" to the chief
procurement officer in DESC and the agency's director. They were infonned that "the
Contractina Officer (CO) and the Division Chief were unable to determine the offered price to be
fair and reasonable in accordance with the requimnents ofthe FAR," the federal acquisition
reaulatioD. Nonetheless, they approved the contract because "CENTCOM confinned that it had
an urgent m,j1jtary need for a JP8 supply route through Jordan."

       The contract awarded to IOTC in June 2004 was rebid in March 2005 and December
2006. In neilber instance was ·IOTC the low bidder, but the conlnlcts were awarded to IOTC
because it remained the only bidder with a letter ofauthorization from the Jordanian government.
In April 2005, Mr. Sargeant 8dvised a contractina official that the letter ofauthorization awarded
to IOTe "is a sensitive issue in Jordan and they would prefer to keep it as low profile as
possible."

        At least twice, State Department officials and officials at the Jordanian Embassy in
Washinaton inquired whether the Defense Depert.ment needed ISSistance in askina Jordan to
issue letters of authorization to potential competiton of IOTC, but these overtures were rebuffed.
In June 2004, Dcfi:nse Department officials told III official at the Jordanian Embassy that "his
assistance would not be necessary at Ihis time."

        I have been conductiIIg oversighl of procurement problems in Iraq since the war beaan
over five years ago. The lorc contnlcls stand out for the extent oftbe company's IIppIIl'eIlt
profiteerini. Of the $210 million In profits received by the company, at least one third - $70
million - appears 10 have benefited a single individual: Mr. Sargeant Ifthc IOTC contracts
bad been awarded to the lowest bidden, the taxpayen could have saved over $ J80 million.

                                          Back&round

        The prolonged occupation of Iraq ,generated an unexpected need to import fuel into the
country for use by U.S. troops and Iraqis. To meet this need. the DefCllge Department issued an
elJlCrlCDcy contract on May 3, 2003, to the Halliburton subsidiary KBR to purchase and import




                                          42
                            t'8tt 8t't'I@IA+J          "8~ 8N~H
The Honorable Robert M. Oates
October 16, 2008
Page 3

fucl into Iraq, primarily from Kuwait and Turk:ey.1 Overall, KBR charged the Defense
Department more than $351 miJlion to import over 131 million pllons of fuel into Iraq and
received a maximum fee of7% of its costs.'

       Beginning on October 15,2003,1 began raising concerns about KBR's exorbitant fuel
charges.] M I pointed out in multiple subsequent letters, independent experts expressed grave
doubts about the reasooablenen of K.BR's price, uJling it "hiaJ!way robbery" and noting that
they could not "construct a price that high.'''' Ultimately, Ihe Defense Contr.ct Audit Agency
questioned $171 million in charges under Ibis contT8ct because KBR "failed to support the
reasonableness of prices paid for fueI ...5



      I U.S. Army Corps ofEnaineers,lnjormalion Paper: BUSiness Case by USACE/or 1M
Use 0/Allanmia as a Supplier 0/Ful under 1M RIO Contract (Ian. 6,20(4).
      1 Minority StaIr, House Committee on Oovernment Reform, Halliburton's Gasoline
Overclulrgu (July 21,2004).
       ] Letter from Reps. Henry A. Waxman and John D. DingeU to OMB Director Joshua
Bolten (Oct. IS, 2(03).
        4 &t, t.g., Letter from Reps. Henry A. Waxman and John D. Dingell to Lt. Gen. Robert
Flowers, U.S. Army Corps of Engineers (Oct 21, 2(03); Letter from Reps. Henry A. Waxman
and John D. Dingcllto National Security Advisor Condoleezza Rice (Oct. 29, 2(03); Letter from
Reps. Henry A. Waxman and John D. Dingell to Lt. Oen. Robert Flo\velS, U.S. Army Corps of
fnaineers (Nov. S, 20(3); LetteT from Reps. Henry A. WIIXIll8D and John D. Dingell and Sen.
Joseph Lieberman to Defense Department Inspector General Joseph E. Sclunitz (Nov. 25, 2(03);
Letter from Reps. Henry A. Waxman and John D. DillieU to National Security Advisor
Condolcezza Rice (Dec. 10,20(3); Letter from Reps. Henry A. Waxman and John D. DinaeU to
Defense Secretary Donald H. RumsfeJd (Dec. 19,2003); Letter from Reps. Henry A. Waxman
and John D. DingeU 10 Lt. OeD. Robert Flowers, U.S. Army Corps of Eniincen (Ian. 6,2004);
LetteT from Rep. Henry A. Waxman to National Security Advisor Condoleez:za Rice (Jan. IS,
2004); Letter from Reps. Henry A. Waxman andlJohn D. DingeU and Sen.loseph Liebennan to
Defense Department Inspector General Joseph E. Schmitz (Ian. 16,2004); Letter from Reps.
Henry A. Waxman and John D. Dingell to Defense Department Inspector Oeoeral Joseph E.
Schmitz (Feb. 24, 2004); Letter from Rep. Henry A. Waxman to Rep. Tom Davis, Chairman,
Government Reform Committee (Nov. 10,2004); Letter from Rep. Henry A. Waxman to
Secretary of State Condoleezza Rice (Feb. 17,2(05).
       5 & .t,   t.g., U.S. Depanment of Defense, Defense Contract Audit Aacncy, Report on
Audit o/Proposal/or Reslon Iraqi Oil Task Order NO.5 (Audit Report No. 3311­
2004KI79000SS) (Oct. 8, 20(4). Set also Minority Staff, House Comminee on Government




                                           43 

                              P81t 8ffl@15'l+J tiSE            8f'~H 

The Honorable Robcn M. Gates
October 16,2008
Paae 4

        On December 30, 2003, !he Defense Department relieved KBR ofits fuel importation
responsibilities and assigned Ibis duty to the Defense Energy Support Center within the
Pentaaon. 6 In order to diversify the sources of fuel being imported into Iraq, DESC i:lSued
solicitations for fuel importation from three countries: Kuwait, Turkey, and Jordan? Ultimately,
Mr. Sargeant's company, the International Oil Trading Company (IOTC). would receive four
con1Jac1& from DESC to deliver fuel to Iraq through Jordan.

        lOTC is a privately held limited liability company registered in Florida. After news
reports in May 2008 alleged the company was significantly overcharging U.S. taxpayers, the
Committee wrote to the company president, Harry Sarieant, and the Secretary of Defense,
Robert Gates, seeking infonnation aDd documents about the company and its contracts.' In
response to these requests, the Committee received and reviewed over 11,000 pages of
documents. The Committee staff mct with representatives of Mr. Sargeant on September 17 and
October 1,2008, and with DESC officials on October 8, 2008.9

                                         IOTC'. Fint Contract

        DESC rust solicited bids on a contract to deliver fuel to Iraq through Jordan in January
2004. 10 The value of \his contract was estimated at sn minion. Three companies submitted
competitive bids on this contnJct. In March 2004, DESC awarded the contract to the low bidder,
a Jordenim company known 8$ Shaheen Business Investment Oroup (SBIO). S81O, however,
was unablc to begin deliveri!1g fuel under the contract within one month. In April, DESC re­
awarded the contract to Mr. Saraeant's company, which bad the sccond-lowcst bid. I I



Reform, Halliburton's Questioned and Unsupported Ceists in Iraq aceed 11.4 Billion (June 27,
2005).
         6    Defense Logistics Agency, Defense Energy Support Celfler 10 Help Restore Iraqi Oil.
(Dec. 30, 2(03).
         1    Defense Energy Support Center, FocI Sheds (Mar. 15,2004).
        • Letter from Chairman Henry A. Waxman to Harry Sargeant, President of the
Internatiooal Oil Trading Company (June 17,2(08); Letter from Chairman Henry A. Waxman to
Sccrelary ofDefcnse Robert M. Oates (June 17,2(08).
         9    At Mr. Sargeant's request, I also met with Mr. Sargeant on June 20, 2008.
         10   Defense Department Solicitation SP0600-04-R-OOS" (Jan. 21, 2004).
          Defense Energy Support Center, PriC4 Negot/oliof/ Memorandum, SPOO600-04-O­
         II
0490, Trigeant, Ltd. (Apr. 8,2(04).




                                                     44
                                 F81t    8FFICIl~ tJ8~ 8~t~Y
The Honorable Robert M. Oates
October 16, 2008
PageS

        During the process ofawarding the contract, DESC added an amendment to the contract
requiring all bidders to obtain a "Letter of Authorization'" from the Jordanian government
allowing the company to uansport fuel through the country. The amendment stated:

        This contract shall not be bindina until the contractor submits to the coo.lraCling office a
        letter from the Jordanian government which permits the contract to bring fuel though
        Jordanilm territory in transit to Iraq.12

           At the October 8, 2008, briefing, DESC officials told the CommiUce tIW they were
informed by U.S. Embassy officials in Jordan that !his requirement was based in Jordanian Iaw.1J
According to a report issued by the Library ofCongress..bowever, Jordanian law does not
require an authorization letter to transport fuel through the country .14 On the contrary, the report
states that Jordanian law allows "goods of foreign origin" to be ''IIansported through Jordan in
1rlIJJSit from one CIltry to another exit point at the borders" without "restriction or prohibition.',I!
In fact, prior to 2004, the Pentagon had imported fuel directly throup Jordan without being
required to obtaiD a lCUer of authorizatioo from the Jordanian govemment. 16

        Mr. Sargeant's company was the only non-Jordanian company to obtain an authorization
letter. Mr. Sargeant reportedly formed a partnership with two Jordanians to bid on the contract:
Mustafa Abu-Naba'.. wlm islisled as a co-owner ofMr. Sqeant's company, and Mohammad
AI-Saleh, who is the bro.ther In law of Jordan's King Abdulleh 11. 17 Mr. AJ-Saleh claims that be

        12 Dcfcox Department     Solicilation SP0600-04-R-OOS4, Amendment II (Mar. 9, 20(4).
        IJDefense Eocr&)' Support Center, Staff Briefing for Committee on Oversiaht and
Govenunent Reform (Oct. 8, 2(08). Se~. e.g., E-maillfrom Richard Eason, Economic Section,
U.S. Embassy, Jordan, to John Walker, Contracting Officer, Defense EneraY Support Center
(May 21, 2007) (forwarding information from the Jordanian EnerBy Ministry confirming the
existence of the letter of authorization requirement).
       14 Memorandum from Library of Congress to Henry A. Waxman. Chairman, House
Oversight and Government Refonn Conunittee (Sept. 19,20(8) (LL File No. 2008-01 S28).
        "Id.
      16 Defense Energy Support Center, Staff Brieflll& for Committee on Oversight and
Govcnunent Reform (Oct. 8, 2008).
       17 Fax from IOTC to DefeMC Energy Support Center submittiDa offer on Solicitation
SP0600-04-0R-OOS4-0002 (May 16,2004) (listing Mr. Sargeant, Mr. AI-Saleh, and Mr. Abu
Nabe', as C(H)wners oflOTC); Florida Secretary or State, 2007 Limited Liability Company
Annual Report for International Oil Trading Company, LLC (Apr. 26, 2007) (listing Mr.
SQeant ~ Mr. Abu Naba'a as "managers" of IOTC).




                                          45
                              F8M 8FFltJIAL+J l'SIiJ               8~115¥
The Honorable Robert M. Galea
October 16. 2008
Page 6

"lIIT1IIIged for tbe Jordanian Ministry of EneriY and Mineral Resources to issue a letter of
authorization to IOTc.nll

      On Marcb 4. 2004. the Defense Depenment official conducted a preaward survey of Mr.
Sargeant's company. whichal the time was called "Trigeant." This survey reported:

       Trigeant's major strength is the backing of the Royal Family. This backing was
       instrumenlal in the demoDStndion ofTrigeant ClIPllbUity to meet the delivery date by
       securing approval to through put product. 19

                                    IOTC'. SeeOlld Co.....ct

        In May 2004, the Defense Energy Support Center began the bidding process on a second
con~t to    deliver fuel through Jordan to Iraq, this. time fo~ use~. troops. Six ~ffers were
SUbmitted. Mr. SlII'geant's CODlJ*1y,lOTC subuutted a bid of~ pilon. This was the
highest bid byJal;.,Jhe lowest bid was~ pilon. The other four bidders all submitted
bids less tbanl_ _ gal1011.1O            .


       None of the other five bidders were able to obtain an authorization letter from the
Jordanian government, however, leaving Mr. Sargeant's company as the only company permitted



       II AI-Sal.h v. Sargeant. Cue No. 2008CAOI 0187XXXXMB (Fl. Cir. Ct. 2008)
(Complaint) (Mr. AI-Saleh is now suina Mr. Sargeant and Mr. Abu-Nabs'a, claiming that they
"conspired to swindle [Mr. AI-Saleh] out of one-chird ofthe profits from the group's valuable
contnlCts with the Govenunent oftbe United S1atesj. On June 17,2008, the Committee
requested from Mr. Sargeant all docwncn1S relating to efforts by him or his company to obtein an
authorization lener from the Jordanian govemment. Letter from Henry A. WIIXIJ)8II, Chairman,
House Oversight and Govemment Reform Committee, to Harry Sargeant (JIGlC 17,2008). In a
meeting on Octobel- 1,2008, Mr. Sugeant's counsel suggested that the.re _      no documents
responsive to chis request and tbat Mr. Saraeant knew very little about how the letter was
obtained from the Jordanian government Meeting between Mark Touhey, Counsel for IOTC,
and Staff, House Ovcnipt and Government Reform Committee (Oct. 1,2001). Mr. Sargeant
has provided no documents in res,ponse to the Committee's request to show bow be
commwUeated with Jordanian officials to obtain the authorization tener.
       19 Department of Defense, Preaward Survey ofProspective Contractor. Tecbnical:
Trigeant (Mar. 4, 2004).
      10 Defense Energy Support Center, Abstract of Initial Offers. Soutbcm Iraq, RFP
SP0600-04-F-OOS+OOO2 (May 28, 2004).




                                        46
                            F8M: 8FFI81l1l5 "SIS                8N~,y
The Honorable Robert M. Gates
October 16,2008
Page 7

to perform the contract.2' At one point, III official at the Jordanian Embusy in Washington,
D.C., offered to help the Defense Department obtain an authorization letter 00 behalf ofone of
the other five bidders. In response. an official at the Defense Energy Support Center "advised
that his assistance would not be necessary at this time because DESC did have competitioo and
other viable offers...u

        During May and JWIC 2004, DESC conducted p r i c e .lions   ' with Mr. Sargeant. In
these negotiations, Mr. Sargeant lowered his initial bid from        S2.10 per gallon.
Nonetheless, it 'became evident to DESC officials that Mr. Sargeant knew be had 11\ exclusive
arrangement with the Jordanians and was taldng advantage of it. On June 17, 2004, a memo
written by a DESC contracting official explained:

       lOTC may have reasonably anticipated no competition and that no other offer could meet
       the requirements of the solicitation as the Jordanian Minister of Energy advised IOTC
       that the Ministry VI'OukI not issue any additionallettcrs authorizing the transport of jet
       fuel for this solicitation. ... (T]OO Contracting offiCCl" cannot reasonably conclude that
       IOTC's offer was submitted with the expectation ofcompelilion.n

        Because the contracti.o& officer dctcnniocd that Mr. Sargeant's bid was made without
true competition, \he contracting officer requested a breakdown ofMc. Sargeant's costs. She
found that his price of $2.1 0 per gallon was at least 36 cents higher than it should be, even taking
into account all reasonable expenses?" Under the Federal Acquis-ition RegUlatioo, the U.S.
government is generally prohibited from issuing contracts unless the price offered is "fair and
reasonable.'~ The contracting officer concluded that Mr. Sargeant's prices were too high to
make III award. She wrote:




      21 Defense Energy Support Center, Staff Briefing for Committee on Oversight and
Government Refonn (Oct. 8, 2008).
      22 Defense Energy Support Center. Memorandum for Record on June 8, 2004. Telephone
Conversation between DESC and Embassy ofJordan (June 16, 20(4).
      2l Defeme Energy Support Center, Price Negotiation Memorandum, Contract SP0600­
04-0-0506 (JWIC 17,2(04).
      241d
       25   Federal Acquisition Regulation § 15.402(a).




                                                   47 

                              F81t    8FFI@Il~            tiSI9 8NhY 

The Honorable Robert M. Gates
October 16, 2008
PageS

        rrlbe Contracting Officer C8Mot detennine IOTC's fmal olTer price of $2.1 0 per gallon
        reasonable as required by FAR [Federal Acquisition Regulation] 15.402.:16

        After the contracting ~fficcr closed negotiations, the contracting officer's superior, a
division chief at DcfCIISC Encrgy Support Center, contacted Mr. Sargeant personally to request
that hc lower his price, noting that be had an effective monopoly contract. Despite this dircc:t
entreaty, Mr. Sargeant refused. The "price neaotiation memorandum" issued on June 17,2004,
describes this CIICOunIcr:

        rrhe DESC division chief) asked Mr. Sargeant if there was any way IOTC could reduce
        the offered price. Mr. Sargeant advised that the offered price was IS low IS they could go
        and still insure proper perfonnance. ... Mr. Sargeant was !lIso advised of the possible
        public scrutiny associated with the award price in liabt ofthe recent controversy over fuel
        prices paid by KBR from Kuwait. Mr. Sargeant is aware oflhis risk and comfortable that
        their price accwately reflects IOTC'. cost of performance?'

        In the face ofMc. Sargeant's refusal to lower his prices, officials at the Defense Energy
Support Center contacted military COIJIIDlIDdcrs at U.S. Central Command, who warned that the
U.S. military had "an urgent need for JP8 [jet fuel] sourced throuab Jordan ...2I Because of this
military urgency, the matter was elevated intemaJly within DESC. Within four days, the chief
procurement official met with Mr. Sargeant personally to ask apin that be lower his price.
Apin, however, Mr. Sargeant refused. The chief procurement officer wrote a memo describing
their meetin&:

        As CSPO [the center's senior procurement official] I conducted negotiations with IOTC
        to discuss the elemeots of their offered price. Mr. Sargeant reilcu1ed and confinned the
        various elements of price that were previously provided to the CO [contracting officer]
        and the Division Chief. . ..

        Mr. Sargeant expressed that to budget without demurrage (i.e. reducing offered price)
        would expose IOTC to si_eant liability and IOTC would not be able to perform (Mr.
        Sargeant staled he woUld rather not offer tban take on this risk).l9

      16 Defense Energy Support Center, Price Negotiation Memorandum, Contract SP06()()'
04-D-0506 (June 17,20(4).
        27ld
        2J   ld
      19 Memorandum of Conversation between Center Senior Procurement Official, Defense
Energy Support Center, and Harry Sargeant (June 21,2004).




                                         48
                             F8tt 8FFI(JIltm "SSI5              8N~ll
The Iionorabic Robert M. Gates
October 16, 2003
Pagc9

        After this conversation. the chiefprocw:ement official also coocluded that "the offered
price canoot be determined fair and reasonable in accordance with FAR 15.403-3(a)(4) and
DLAD 15.404-2.,,]0 Because o€the military's compelling need for the fuel, ho~ver, he
forwarded this InformatioD to his superior, writing: "I am forwardina the ~ket with
recommendation ofaward 10 the Director, Defense EneraY Support Center...3)

        The DESC director personally approved the award on June 22, 2004.32 In explaining his
deeision, the director issued a memonndum on July 21; 2004, settina forth the '~ustificatioD for
other thaD full and open competition" and specifically citing the "!qeot military need"
expn:JSCd by CENTCOM. The memo "ed:

       Six offCl3 were: received. Ho~c:r, only International Oil Trade Center (IOTC) was
       determined acceptable because: it was the only offeror able 10 provide:, prior 10 close: of
       negotiations, the required letter from the Jordanian government authorizing it to transit
       fuel through Jordan to Iraq. Ca1'fCOM confumed that it bad an urgent military Deed for
       a JP8 supply route through Jordan.lJ

                                    IOTC'. Third Contract

         On March 15, 2005, the: Defeosc: Energy Support Center solicited bids on aD cxtension of
the June 2004 fuel contract. This time, four competitive bids _re submitted. Although IOTC's
bid was the: ICCOnd highest, none of the other companies ~ able to produce: an authorizalion
letter, again \caving IOTC IS ·the only cliaiblc offeror.J4

      During the: bidding process, both the Jordanian EDc:rgy Minister and Mr. SargCIIDt uraed
DESC to keep IOTC's authorization lCtler secret. On May 12,2005, an official at the U.S.
Embassy in Jordan sent aD e-mail to a DESC contractina official explaining \bat Jordan's Energy



       30 ld

       3)ld
      :Jl Defense Eoeri)' Support Center, Prlu Negolialion MorwrQlldwrt. Contract SP0600­
04-D-OS06 (June: 17,2004) (siancd and approved by DESC director on June 22, 2004).
       3] Defense: Enc:raY Support Center, Justijica/fon/or Othu than FIlII and Open
Compelltion/or an Altemale Supply ROUle/or JP8 Through Jordan to Iraq Under Authority 0/
10 U.S.C. 2J04(C)(2). Solicitalion SP0600-04-R-OOS4..fJ()()2 (July 21, 2004).
      34 DefCJlSC Energy Support Center, Staff Briefing for Committee on Oversight and
Oovc:mmeot Reform (Oct. I, 2008).




                                                 49 

                            )is"' S)i)iICIAh l?sts Sfih1
                                                                         T

The Honorable Robert M. Gates
October 16, 2008
Page 10

Minister "requested lhat we keep this infonnation quiet for political rcasons...J5 On April 21,
2005, Mr. Sargeant sent an e-mail to !he same COgtractina official explainina!bat ''this is a
sensitive issue In Jordan and they would prefer to keep it as low profile as possible I !'.l6

        When 10TC's competitors began reporting difficulties obtaining Ietten of authorization,
an olTlCiai at the u.s. Embassy in Amman olTcnxl to hclp. On May 5, 2005, an official at the
U.S. Embassy in Amman wrote to the DESC contracting officer in charge of the contracts:

       My recol1'll1lendation is that DESC proceed wilh the tendering process. 0Dce DESC hIlS
       reviewed the bid packets and agreed on a short·list, we: can then seek LOAs [Ielten of
       authorization] from Ihc Energy Minister.... Please keep us posted on the biddiD&
       schedule and on when DESCbas decided on a shortlist or a winning bidder. We will
       then seek LOAs from !he Energy Ministry. We an: eager to ensure that the flow of fuel
       supplies to our troops in Iraq remains steady.37

       In respGll5C, a DESC contracting official wrote:

       Rather than have you seek LOAs from the 003 [OoVCr1llnellt ofJordan] on any of these
       finns, I would ask that you confinn LOAs once we have received them from the offerGrs
       and again if poasible find out if the current LOA for IOTC is considered valid by the
       MiniSler of Enezgy for the follow on contract should IOTC be in line for the award.3I

        In Aprilud May 2005, DESC contracting officials conducted price negotiations wilh
10TC. Although Mr. Sargeant offered a lower price per gallon than he had previously, his priee
was still outside the ranae deemed "fair and reasonable" in June 2004.39 This time, however,

       35 E.mail &om Richard Eason, Economic Section, U.S. Embassy, Jordan, to Jobn Walker,
Contracting Officer, DESC (May 12, 2005).
      36 E.mail from Harry Sargeant to John Walker, Contracting Officer, Defense EneraY
Support Center (Apr. 21, 2005).
      37 E-mail &om Richard Eason, Economic Section, U.S. Embassy, Jordan, to John Walker,
Contracting Officer, DESC (May 5, 2005).
       JI £omsil from John W~er, Contracting Officer, Defense Energy Support Center, 10
Richard Eason, F.conomic Section, U.S. Embassy, Jordan (May 9,2005).
        )910TC 0Eprice of~ gallon ofjet fuel, which included-'o cover !be
cost offuel and .        . for 10TC's profit and cXpeMCI. Defense Energy  ~rt Center,
Prla Negotilltion emorandum, Contract SP06()().()5-[)..t)497 (May 26, 200S). In June 2004,
DESC had detennined that a margin of84 cents was acceptable. Defense Energy Support Center,
Pria Ntgotlotion Memorandum, Contract SP0600·04-[)..t)506 (June 17,20(4) (finding that




                                       50
                            P81t 8PPI(JVm                 ~Sfil 8N~Y
The HODOrabie Robert M. Gates
October 16, 2008
Page 11

DESC did not conduct a detailed analysis oflOTC's price. Instead, it deemed 10TC', price fair
and reasouable because 10TC had submitted its bid with the "reasonable eXpedaoon" of
"adequate competition:r40 On May 26, 2005, the DESC awarded 10TC the conlnlCL 41 DESC
later exercised two six-month options on thia contract, extending IOTC's cootratt throuah }Ime
2007.

                                   IOTC', FourtJa CoDtnd

        On December 15, 2006, the Defense Energy Support Center IOlicitcd bids on a fourth
conlnlCt to deliver fuel 10 Iraq through Jordan. Seven companies submitted bids, ofwbic::h foUl"
were determined to be competitive. Of these four competitive bids, 10TC's price was the second
hiahesl Once aalin, however, only 10TC could provide a letter ofauthorization, so IOTC was
the only offeror elieible for the conlracl. 42 On May 3, 2007, DESC awarded the: c:ontrattlO
IOTC.13

        In January 2007, the U.S. Ambassador to Jordan, David Hale, spoke directly with the
Jordallian Energy Minister about 10TC's letter ofauthorization.44 However, the Committee has
no evidence that Ambassador Hale asked the Eneray Minimr 10 waive the authorization
requiremcnt or issue authorization letters for 10TC's competitors.




IOTC's price 0($2.10, which includcd~r fuel costs and a marain OfllllJvas 36
cents higher than the ICCq)I8ble price).
        40 Defense Energy Support Center, Price Negotiation Memorandum, ConlrflCt SP06OO­
05-IJ-(J497 (May 26, 2005).
       41   Jd.
     42 Defense EneraY Support Center, Staff Briefing for Committee on Oversight and
Oovemment Refonn (Oct. II, 2008).
     43 Defense Department CoDlrllCt SP06O().{)7-D-0483 (May 3, 2007).

       44 E-mail from Rkhard Eason, Economic: Section, U.S. Embassy, Jordan, to John Walker,
Contrac:ting Officer, Defense EneraY Support Center (Jan. JII, 2007).
       4'Letter &om Christopher M. Johnson, CoIllllJeI to.to Oovemmcot AccolDllabiJity
OffICe (May 14,2007).




                                                51 

                           F8ft 8FFI@hfl+J tiSIS 8NEY 

The Honorable Robert M. Gates
October 16, 2008
Page 12

requirement for a letter of authorization was "unduly rcstrictive.,,46 In response to these protests,
the Defense Eneri)' Support Center agreed to reconsider the award. It then detennined again that
"IOTC USA was the only flTTD which provided required Letter ofAuthorization.,.47

          When~lHlin protested the decision, officials at DESC took several actions. First,
they aarced to-:;:;-; list from the Jordanian Ministry of Energy of companies that '"would be
eligible to receive a Letter ofAuthori:zation.,.41 Ofihe five companies on the list, four were
Jordanian compenies that did not bid on any of the four DefenseDepartmcnt fuel contracts. The
fifth \VIIS IOTC. 49 Second, DESC agreed to iS5Ue a new solicitation rather than exercise the first
one-year option under IOTC's contract.

        The new SOli~'  . did not improve the situation, however. Both bidders on the new
solicitation, including    and a second company, were unable to obtain letters ot: authorization.
As a result, DESC a     oned the competition and' decided to exercise its option to extend its
contract with IOTC. 5G

       Once a8ain,.Jxotested.~1 In an e-mail toDESC.an~fJkial explained the
problem:                                             ­




      46 Defense Energy Suppon Center, Price NegodatlonlSowce Selection Memorandum,
SP0600-07-R-V1fiJI.J/'8, DT1. &: MUJfrom Jordan to Western Iraq (June 8, 2007)
(summarizina ~tests and DESC's responses).
       471d
       oil F....mail from Farouq A1-Hiyari, Secretary General, Jordanian Ministry of Ener&Y and
Mineral Resources, to Kristen Pisani, Economic Section, U.S. Embassy, Jordan (Oct. 30,2001).
       49 1d

        5G Defense Energy Support Center, Price NegOliaJion/Source Selection Memorandum,
SP0600-08-R-0701, JP8, DTl, & MUJfrom Jordan to Western Iraq (Feb. 24,2(08).
        51_Protest                                    Energy Support Center: Solicitation II
SP0600-08-R-070 I -                                      Fuel and Gasoline from Jordan to Iraq
(iMar. 12, 2(08) (submitted to GAO); see                   of SoUcitation /I SP0600-08-R-0701
- Supply and Delivery ofJP8, Diesel Fuel               from Jordan to Iraq (Nov. IS, 2007)
(submitted to DESC).




                                                  52
                             F8:R     8FFI@I/~ ~8ts              8NI31f
The Honorable Robert M. Gates
October 16, 2008
Page 13




                                         IOTC's pronts

        According to document5 provided to the Committee by Mr. Sargeant, the IOTC contracts
have been exceptionally lucrative for IOTC. In total, his company bas been ~d over S1.4
billion unde~ the four contracts and has collected profits of ovCJ S21 0 million. 54 The company's
profit margin has been over 14%.

          Under the first contract, Mr. Sargeant's company was paid $41 million, but ended up
with a net loss of $1.4 million after DESC reduced its requirements lind left IOTC with excess
fuel. 5s Under the secood con1rIIct, IOTC was paid SIS4 million and made SI7 million in
profits. 56 Uncia- the third contract, IOTC was paid S71 0 million and made SI21 million in



      51 E-mail                            to 10hn Walker, Contracting Officcc, Defense Energy
Support Cente.r ~.
      53 E-mail                            tolohnWalk.er. Contracting Officer, Defense Energy
Support Center (May
      54 IOTC, TrigcanllIntcmational Oil Trading CenterlIntemationai Oil Trading Company
Government Contracts 2004-2008 (undated chart).
         " DefeDIIC Energy Support Center, Staff Briefing for Committee on Oversiaht and
Govemment Refonn (Oct 8" 2008) (listing value of contract); IOTC, Trigeantllntemalional Oil
Tradina Centerllnternational Oil Trading Company Govemment Conlract.s 2004-2008 (undaled
chart) (listing 1000's net profit).
      56 IOTC, Trigeantllnternational Oil Trading Centa-lIntemational Oil Trading Company
Govcrnrncnt Contracts 2004-2008 (undated chart).




                                       53
                            F81l 8FFI@Vt+J lYBt3               8M~Y
The Honorable Robert M. Gates
October 16,2008
Page 14

profits.'7 Undcr the fourth contract, which is ongoing, IOTC has been paid more than $560
million and has made over $74 million in profits.sa

         Mr. Sargeant's personal gain from these four contracts may have been $70 million or
higher. Ac:c:ordina to Mr. Sargeant'. former ~er, Mr. AI-Saleh, Mr. Sargeant initially
received one-third of the company's profits.' Mr. AI-Saleh a1lelCS that Mr. Saraeant and the
third partner, Mustafa Abu-Naha'a, improperly denied Mr. AI-SaI'eh his share oCtbe profits. If
this is true, this may have increased Mr. Sar&Qllt's share oflhc profits to 50%.

        The payments 10 IOTC llianific:antly exceeded the amounts that would have been paid if
DESC bad awarded the contracts to die lowest bidders. The Committee staff has c:alcul.ated that
iCDESC bad awarded the: contracts to the lowest bidders in June 2004 contract, June 2005
contract, and May 2007, the taxpayers could have saved SI83 million. This is over 87% of tile
profits made by IOTC and Mr. Sargeant

                                          CODeluioa

         When KBR WlIS wxler contrBc:t with the Defense Department to import fuel from Kuwait
into Iraq. the company'. profits were limited 10 a maximum oC7% ofcosts. Even these profits
were heavily criticized aI excessive. But when IOTC assumed put of this work and beaan
importing CueICrom Jordan, the company more than doubled this profit margin to over 14%,
colJec:ting more than $210 million under contracts worth $1 .4 billion. At least $70 million of
these profits appear to have gone to one penon: Mr. Sargeant.

        In 2004, DESC officials recognized that IOTC's charges were neither reasonable nor fair
and personally interveocd to ask Mr. Sargeant to lower his ,prices. He refused. His company had
an effective monopoly over fuel shipments through Jordan, and it appears that he took deliberate
advantage ofthls monopoly to enrich himselCand his company at the expc:nscoCU.S. taxpaycrs
and our military. If this is true, it represents the worst form oCwar profiteering.




       1'I1d
       SlId.
      59 A/-&kh v. Sargeant, Case No. 2008CAO I0 187XXXXMB (FI. Cir. Ct. 2(08)
(Complaint).




                                        54
                           F8R: 8FFI@li'l'I5 tiSI9            8N~H
The Honorable Robert M. Gates
October 16,2008
Pll8c IS

        1 respectfully request that you investigate this matter and report beck to the Committee on
your findings and the steps you will lake to protect the interests of U.S. taxpayers.

                                             Sincerely.



                                             Henry A. Waxman
                                             Chainnall

cc:    Tom Davis
       Ranking Minority Member




                                        55
                            F81t 8FFICftlzb               ~SFl   8NbY
Appendix C. Secretary of Defense Letter 



                                 SECRETARY OF DEFENSE
                                 1000 DEFENSE PENTAGON
                                WASHINGTON. DC 2.0301·1000




                                                                    JAN 27 2009
     The Honorable Edolphus Towns
     ChRirmnn, Committee on Oversight
      and Government Refonn
     U.S. House of Rcpresentalives
     Washington, DC 20515

     Vear Mr. Chairman:

             111is responds to Chairman Henry Waxman's letter of October 16, 2008
     (enclosed) expressing concems that the International Oil Trading Company is
     overcharging the U.S. government under contracts to deliver fuel through Jordan
     into Iraq. I appreciate and share the Committee's expectation that all contractors
     must behave ethically and legally while supporting the Department of Defense's
     requirements. In light of these concerns, I am requesting that the Department of
     Defense Inspector General conduct an independent audit of the applicable defense
     contracts and the issues highlighted in Chairman Waxman's letter.

           Once these reviews arc completed, the Depllrtment will report the results to
     the Committee.




     Enclosure:
     As stated

     cc:
     The Honorable Darrell E. Isga
     Ranking Member




                                           56
                             f'8:R 8f'f'I(JVm       (9S~   8M15Y
Appendix D. Response to Congressional
Issues
Issue 1: Did the USCENTCOM have an urgent need for a fuel supply route through Jordan?

Audit Results: According to USCENTCOM' s Joint Petroleum Office, it had an urgent need
for a third fuel supply route into Iraq during the early phases of combat operations. The
military units operating in Iraq required more fuel to meet their mission requirements. The
Kuwait fuel supply route was already operating at its peak capacity, and due to logistical
issues, the quantity of fuel that USCENTCOM could obtain from the North Atlantic Treaty
Organization pipeline through Turkey was limited and unreliable. Consequently, a third fuel
supply route was needed and, due to the political realities of the region, going through Jordan
was the only alternative.

Issue 2: No competitive market existed.

Audit Results: Although numerous companies submitted proposals for the contract
requirements, IOTC was the only company capable of satisfying the responsibility
requirements included in the various solicitations issued for these contracts. Therefore, we
question whether there was ever adequate price competition for these procurements.

Issue 3: IOTC appears to have engaged in a reprehensible form of war profiteering.

Audit Results: It is difficult to determine whether IOTC engaged in war profiteering. Based
on our analysis of the amount that IOTC paid its suppliers for the jet fuel delivered under
contract SP0600-07-D-0483, IOTC's actual product costs tracked to the price that DLA
Energy agreed to pay for the fuel supplied under the contract. However, it is hard to evaluate
how reasonable the non fuel components oflOTC's prices were because DLA Energy did not
obtain cost proposals from the offerors or field pricing assistance. Nevertheless, it should be
noted that the nonfuel         Ion price for IOTC's last three contracts ranged from.
                            nonfuel price that was evaluated during the price negotiatIOns for
contract                      and resulted in IOTC receiving about $160 to $204 million (or
6 to 7 percent) more than what can be supported by price analysis.




                                           57
                               F81t 8FFI@llnm tiS@      8N~Y
Appendix E. Guidance
Federal Acquisition Regulation
Responsible Prospective Contractors. FAR Subpart 9.1, "Responsible Prospective
Contractors," requires that contracts only be awarded to responsible prospective contractors.
The contracting officer is responsible for researching and determining whether a contractor is
deemed responsible. FAR Subpart 9.104-1, "General Standards," states to be determined
responsible, a prospective contractor must:

       (a) Have adequate financial resources to perform the contract, or the ability to obtain
       them (see 9.1 04-3(a));
       (b) Be able to comply with the required or proposed delivery or performance schedule,
       taking into consideration all existing commercial and governmental business
       commitments;
       (c) Have a satisfactory performance record (see 9.1 04-3(b) and Subpart 42.15). A
       prospective contractor shall not be determined responsible or nonresponsible solely on
       the basis ofa lack of relevant performance history, except as provided in 9.104-2;
       (d) Have a satisfactory record of integrity and business ethics (for example, see Subpart
       42.15);
       (e) Have the necessary organization, experience, accounting and operational controls,
       and technical skills, or the ability to obtain them (including, as appropriate, such
       elements as production control procedures, property control systems, quality assurance
       measures, and safety programs applicable to materials to be produced or services to be
       performed by the prospective contractor and subcontractors). (See 9.104-3 (a).)
       (f) Have the necessary production, construction , and technical equipment and facilities,
       or the ability to obtain them (see 9. 104-3 (a)); and
       (g) Be otherwise qualified and eligible to receive an award under applicable laws and
       regulations (see also inverted domestic corporation prohibition at FAR 9.1 08.

Pricing Policy. FAR Subpart 15.402, "Pricing Policy," requires contracting officers to
purchase supplies and services from responsible sources at fair and reasonable prices. To the
extent that cost or pricing data are not required by FAR subpart 15.403-4, the contracting
officer must generally use the following order of preference in determining the type of
information required:

   • 	 no additional information from the offeror, if a price is based on adequate 

       competition, except as provided by FAR Subpart 15.403-3(b); 

   • 	 information other than cost or pricing data; and
   • 	 cost or pricing data.

Adequate Price Competition. In accordance with FAR subpart 15.403-1(c)(1), a price is
based on adequate price competition if:

        (i) Two or more responsible offerors, competing independently, submit priced offers
       that satisfy the Government's expressed requirement and if-­



                                                     58
                                   F81t 8FFI@Ii'i.+J      ~8E 8N~Ti
              (A) A ward will be made to the offeror whose proposal represents the best value
              (see 2. \0 I) where price is a substantial factor in source selection; and
              (B) There is no finding that the price of the otherwise successful offeror is
              unreasonable . Any finding that the price is unreasonable must be supported by a
              statement of the facts and approved at a level above the contracting officer;
       (ii) There was a reasonable expectation, based on market research or other assessment,
       that two or more responsible offerors, competing independently, would submit priced
       offers in response to the solicitation's expressed requirement, even though only one
       offer is received from a responsible offeror and if -­
             (A) Based on the offer received, the contracting officer can reasonably conclude
             that the offer was submitted with the expectation of competition, e.g.,
             circumstances indicate that -­
                  (1) The offeror believed that at least one other offeror was capable of
                  submitting a meaningful offer; and
                  (2) The offeror had no reason to believe that other potential offerors did not
                  intend to submit an offer; and
             (B) The determination that the proposed price is based on adequate price
             competition, is reasonable, and is approved at a level above the contracting
             officer; or
       (iii) Price analysis clearly demonstrates that the proposed price is reasonable in
       comparison with current or recent prices for the same or similar items, adjusted to
       reflect changes in market conditions, economic conditions, quantities, or terms and
       conditions under contracts that resulted from adequate price competition.

FAR Subpart 15.403-3(b), "Adequate price competition," requires that additional information
be obtained when unusual circumstances exist that hinder a contracting officer's ability to
conclude that the offered price is reasonable. Specifically,

       When adequate price competition exists (see IS.403-I(c)(I)), generally no additional
       information is necessary to determine the reasonableness of price. However, if there
       are unusual circumstances where it is concluded that additional information is
       necessary to determine the reasonableness of price, the contracting officer shall, to
       the maximum extent practicable, obtain the additional information from sources
       other than the offeror.       In addition, the contracting officer may request
       information to determine the cost realism of competing offers or to evaluate
       competing approaches. [emphasis added)


FAR Subpart 15.403-1, "Prohibition on obtaining cost or pricing data," states:

       (iii) The following requirements apply to minor modifications defined in paragraph
       (3)(ii) of the definition ofa commercial item at 2.101 that do not change the item from
       a commercial item to a noncommercial item:


       (C) For acquisitions funded by DoD, NASA, or Coast Guard such modifications of
       a commercial item are not exempt from the requirement for submission of cost or
       pricing data on the basis of the exemption provided for at FAR 15.403-1(c)(3) if
       the total price of all such modifications under a particular contract action exceeds
       the greater of the threshold for obtaining cost and pricing data in 15.403-4
       [$650,000) or 5 percent of the total price of the contract at the time of contract
       award. [emphasis added)


                                                     59
                                   F81t   8FFI@li~ ~BE           8NbY
Acceptance. FAR Subpart 46.5, "Acceptance," defines what constitutes acceptance and
identifies when acceptance can take place. Specifically, FAR Subpart 46.501 states:

       Acceptance constitutes acknowledgement that the supplies or services conform with
       applicable contract quality and quantity requirements, except as provided in this
       subpart and subject to other terms and conditions of the contract. Acceptance may
       take place before delivery, at the time of delivery, or after delivery, depending on
       the provisions of the terms and conditions of the contract. Supplies or services
       shall ordinarily not be accepted before completion of Government contract quality
       assurance actions (however, see 46.504). Acceptance shall ordinarily be evidenced
       by execution of an acceptance certificate on an inspection or receiving report form
       or commercial shipping documenUpacking list. [emphasis added]

FAR Subpart 46.502, "Responsibility for Acceptance," assigns the responsibility for
acceptance of supplies or services to the contracting officer, but allows contracting officers to
assign the responsibility to a cognizant contract administration office or another agency.

       Acceptance of supplies or services is the responsibility of the contracting officer.
       When this responsibility is assigned to a cognizant contract administration office
       or to another agency (see 42.202(g», acceptance by that office or agency is binding
       on the Government. [emphasis added]

Contracting Officer's Representative. Contracting officers may designate qualified
personnel as their authorized representatives to assist in either, technical monitoring or
administration of a contract. The Defense Acquisition University defines a COR as:

       an individual who is designated and authorized in writing by the contracting
       officer to perform specific technical or administrative functions on contracts or
       orders. The term COR includes any individual (military or civilian) performing these
       types of functions on contracts regardless of the term used to describe their position or
       assignment (e.g., alternate CORs, assistant CORs, Contracting Officers' Technical
       Representatives (COTRs), task order monitors, task order managers, performance
       assessment monitors, etc.). These individuals serve a critical role in assuring
       contractors meet the performance requirements of contracts in terms of cost, quality,
       quantity, and schedule. Only contracting officers have the authority to delegate
       these functions. [emphasis added)

The Defense Federal Acquisition Regulation Supplement Subpart 201.6, "Career
Development, Contracting Authority and Responsibilities," requires CORs to have their
authority designated in writing and should be qualified by training and experience
commensurate with the responsibility delegated by the contracting officer.

Inherently Governmental Function. FAR Subpart 7.5, "Inherently Governmental
Functions," prescribes policies and procedures to ensure that inherently governmental
functions are not perfonned by contractors. FAR subpart 7 .503( c) identifies accepting
contractor products or services as an example of an inherently governmental function.

       (c) The following is a list of examples of functions considered to be inherently
       governmental functions or which shall be treated as such. This list is not all
       inclusive:



                                                     60
                                   F81t   8FFI@Ii'~ 19"5~        8N15Y
              (12) In federal procurement activities with respect to prime contracts­


                (v)    Administering contracts (including ordering changes In contract
                performance or contract quantities, taking action based on evaluations of
                contractor performance, and accepting or rejecting contractor products or
                services) [emphasis added]

The "Contingency Contracting: A Joint Handbook For The 21 sl Century," that the Defense
Procurement and Acquisition Policy issued to provide a consolidated source of information
for contingency contracting officers also identifies the inappropriateness of contractors
accepting products or services for the Government. Specifically, Chapter 6, "Contract
Administration," of the handbook states:

       It is important to know that government support contractors are not authorized
       to accept or sign for the government in any situation. [emphasis added]



Defense Federal Acquisition Regulation Supplement
Additional Information to Support Price Reasonableness. DF ARS PGI 215.403-3,
"Requiring information other than cost or pricing data," provides additional guidance to
contracting officers when cost or pricing data are not required, and the contracting officer
does not have sufficient data or information to determine price reasonableness. Specifically,
it states:

       To the extent that cost or pricing data are not required by FAR 15.403-4 and there is no
       other means for the contracting officer to determine that prices are fair and reasonable,
       the offeror is required to submit "information other than cost or pricing data" (see
       definition at FAR 2.101). In accordance with FAR 15.403-3(a), the offeror must
       provide appropriate information on the prices at which the same or similar items have
       previously been sold, adequate for determining the reasonableness of the price. The
       following clarifies these requirements:

       (1) Information other than cost or pricing data. When cost or pricing data are not
       required, the contracting officer must obtain whatever information is necessary in
       order to determine the reasonableness of the price. The FAR defines this as
       "information other than cost or pricing data." When TINA [Truth In Negotiations
       Act] does not apply and there is no other means of determining that prices are
       fair and reasonable, the contracting officer must obtain appropriate information
       on the prices at which the same or similar items have been sold previously,
       adequate for evaluating the reasonableness of the price. Sales data must be
       comparable to the quantities, capabilities, specifications, etc., of the product or service
       proposed. Sufficient steps must be taken to verify the integrity of the sales data, to
       include assistance from the Defense Contract Management Agency, the Defense
       Contract Audit Agency, and/or other agencies if required . [emphasis added]

Requirement for Cost Analysis and Consideration of the Need for Field Pricing
Assistance. DFARS PGI 215.404-1, "Proposal Analysis," requires that a cost analysis be
performed when sufficient information cannot be obtained to perform price analysis. It also
requires contracting officers to consider the need for field pricing support. Specifically,



                                               61
                                    F8R 8FF1(Jlh15         t;~}i)   8N15Y
DFARS PGI 215.404-1(c), "Cost Analysis," states:

       (i) When the contracting officer cannot obtain sufficient information to perform a
       price analysis in accordance with the pricing steps in FAR ]5.404-1 (b), a cost
       analysis is required.

       (ii) When a solicitation is Dot subject to TINA and a cost analysis is required, the
       contracting officer must clearly communicate to the offeror the cost information
       that will be needed to determine if the proposed price is fair and reasonable.


       (iv) The contracting officer must always consider the need for field prIcmg
       support from the Defense Contract Management Agency, the Defense Contract
       Audit Agency, and/or other agencies. [emphasis added)

FAR Subpart 15.404-2(a), "Field pricing assistance," and DFARS PGI 215.404-2,
"Infonnation to support proposal analysis," identify situations when the contracting officer
should consider requesting field pricing assistance. Specifically,

       •   FAR Subpart 15.404-2(a) states:

       (1) The contracting officer should request field prIcmg assistance when the
       information available at the buying activity is inadequate to determine a fair and
       reasonable price. [emphasis added] The contracting officer must tailor requests to
       reflect the minimum essential supplemental information needed to conduct a technical
       or cost or price analysis.

       •   DFARS PGI 215.404-2(a) states:

       (i) The contracting officer should consider requesting field pricing assistance­
             (A) Fixed-price proposals exceeding the cost or pricing threshold;
             [emphasis added)




                                                   62
                                  F8lt 8FF1@1li+J ti8ts        8N~Y
Appendix F. Additional Information on
Contractor Protests




                         63 

               F9R 9FFI8Vftis "SSts 8N"bY 

             64 

F8R: 8FFIElh6zl5 U8t!] 81'H5Y
           65
F8tt 8FFI@IAh H81S 8Nh1f
Appendix G. International Oil Trading
Company-Created Fuel Delivery and
Acceptance Form
                     .'   ~     .                                                                                              "   "

            o.IoonIII : I~ .        . r       _                            .,           •


                          ~-        'I nternational Oil. Trade Center
                                                                   .      :'t'   , oJ       I :"   ..
                                                            ~   ... ~, ... ' ,.•.!\:~.,. -
                                                           - ~" e/:~* '~
                                                    Fuel D~ iinci ~nce Form
                               .1




                                                                                                                                                      ~
                                                                 ~l~u,'I.J                                                                 o
                                                    DESC Fuel DeI'+Y A~nc. Fonn
                                                    Contracttl : SPosoo-Q7-0-0483                                                              o.

                                                                            Iraq
                                                                             ,




                                                                                                                     JPI




  .   ,.




                                                                                                                  "~,-,,,,~~
                                                                                                                  .bJM Wr- : 01;" a"...a
           ~... ;' IOTe   Lo....ng ""'nl                                                                      ....,..~~ : ..wa~

                                          ... ",r




                                                                                                                                                "   ' .




                                                                       66
                                           F8M 8FFI@li'm                                ss~             81'lI5Y
Appendix H. DO Form 250, Material Inspection
and Receiving Report

                                          MATERIAL INSPECTION AHD RECDVING REPORT                                                                              j'-AprnNod
                                                                                                                                                                   !Me MJ. 010U1248

         ~~.::r.::l~-""'=-"'-"-"'             .. ,·="-."Q_""-~~--~--~~ft-··
                                                                       . SWGOOIUIttIt.. . IfII9IIdI1g . . ........ ....... or.,,-... .,.a .. ~
        ......... ~lhtdlt.ilfl!lldld.IIIPId~~\twGOlllo:;tJ;lnof"bMIUon
        01 ...........,.,. ~ ~ lor Ida:nJ Ue
        (010.& 02'",..1'10;.....,..;......
                                                                   . to ~ m UDtrM.
                                              ·' ~.SuI01")O.1.~ ln02'..3OiI':. ~"""$
                                                                                                      w.,......
                                                                                            .c.~ ~.-..... ~
                                                                                                 t . - - ­ ..... ~9#6'1 . . . ~ 01
                                                                                                                                  ~              ~
                                                                                                                                   . ...,pH. . . . . ~
                                                                                                                                                        ............      .....
       .."IIIlpc110..,.                        111'."
                         fJ'Cf"AJ I.If liiAnylou-iptJ   "*'-t",Q'.      I . .. . nat ~.ean.tIJ v.kt OUSCllJdbOl ........
                                                   PLEAS( DO NOT RE'TURN YOUR ~ETED FOIIM TO THE AaOvt ADDRESS.
                              SEND THIS FORM IN ACCORDANCE WITH THE IIISTRUCTlONS CONTAINED " THE DFAH. API'OIDIX                                                F·~01

        I.   ICOImACllNO~---                                           I   OKOlR NO.              •. _0ICf MOJDAn:                        IJ . MGllOf
                                                                                                                                                               r,~--.r l
                                                                                                                                                                   ,                       I
        2. _ T N O .             r.DAT£~                4. III
                                                                                                                       15. DISCOUNJ_
                                                          TeN
                                                                                                                                                                           1
                                                                                                                                                                   IlUIructions for Block 8­
        •. _          CONTIIACTOR             COllE                                               1O.~_BY                                                 ax       AC<:qlIancc Point Elller an
                                                                                                                                                                   " S" for ori&jn or 8 "D" (or
                                                                                                                                                                 de$\lnaum

IlUIruction for Block 21-C"ntlllCt Quality
                                                                      I fa&.                      U . PAYMENT WLI. u: _              ..,                           I
Asurance (eQA) Slaks, (il the words -conform te                                                                                                           COOl
conIr8Ct" conainC<i in the print~-d lllatcmcnts ir
Block., 21. and 21b rolato 10 qlllliity and to the
quantity of the it~nlS on the report (Yl o...tination
(Al Wh,.., a=planc~ at orisin is indicatL..J in Block
21!1, mak~ no <nlri~s in Bloclo: 21b. B) When CQA                                                 14. _ ' O R                                             cooq
and accept"""" or acceptanoe is at destination. tht               h
authorifi!d GovemmMt rqlf~tative must --(1)                                                       I
Place an - X" in ~ IIppropriate bo.'C(es); (2) Sigr
                                                                                                                                                                 llllaruCuons fa' Block 22
and dat~; and (3) Enter typed, Slampo:d, or prin1«
name, title, moili~ address, and commercial
telephone "1m! b<r.
                                                                           ~1lON
                                                                                     • t;ypJ of
                                                                                                                  1J. QIMNTITY
                                                                                                                  _/Me-D'
                                                                                                                                   ...
                                                                                                                                  INT
                                                                                                                                                     It.
                                                                                                                                                  !NT PIICII
                                                                                                                                                                 . -Re<%ivct's Lis:.    The
                                                                                                                                                                 authorized reprex....tivc
                                                                                                                                                                    f the receivi~ actiYil)"
                      I                                                                                                                                            GOVentml:lll           01
                                                                                                                                                                !contractor) must WIC this
                      I                                                                                                                                          block 10 show n:<;Cipl,
                                                                                                                                                                [quartity, and condition.
                      I
                      I
                      I
                      I                                                                                                                                            V
       P.''-                                                     ..
        21. COtITRACT QUAlITY ASSUaANC(                                                                                          12. 1ICII\Ia"S USE            ~
                                                                           _ IlL

                                                                  --by_._..,_.
                                                                        ................. . ... '". .
                                                                                                                                   Quw.t.oe. thOM1 ., o*JMn 11 w. . ~


           - -...­b0 y . .
                                                                                                                                                                                     If1

                                                                 :;JCQA                                                            ~tJf1l good candIJan ftKCGPl 85 I'IlMCl
             CQII              ACCf9rAN:L of ..... - . .
                                   or . . - my -'"""" ...
        UMY QOQii cm "" Q)I"''''\' ~XQI!pl" no,," _ . . Of
        on "W""i"9-'
                                                                  ......
                                                                  ~-.
                                                                                 O     ACDPlAlEI .. _ _ -

                                                                                                                                 ............,"'u
                                                                                                                                 rYPlD lIiMI( :
                                                                                                                                                       OOW_JIfT _~. _' A"'"



             ......
        1 W'(D MAIa: :
                                rAI'iIIIiI.'Il1flB.Mf                   ......
                                                                  l1'P(O fiMM(;
                                                                                           --_.                                  l int:
                                                                                                                                 ...........AlXH5S:


        TtnE:                                                    1ml;
                                                                                                                                 CC»NtJICW. Tll.Olti(N
        MAR tNG NJOR[SS:                                          MM." NJDA(SS:                                                  .......R:
                                                                                                                                 . """"Uy
        ~                 T£l£ftOll:                              C(MIlACW..      nuPl-lOll:
                                                                                                                                 In _y'ilrippaJ. 'CoKe by {J(} 1IDdi; tI        rM""_.
                                                                                                                                              IOCtlIwd ~ IhtI Gow!mmerll Itt UwJ ,..,.

                                                                                                                                 .",.. 1IL'!.",...1bly ,rl&:JtlNflCllIfIIuw qlMuy sJ"fJPfId
        ...-It                                                                                                                   Mttd.";,.;1,,.
       IZ3. """'''''.. ,'''' UR 0IIL1




       DO FORM 250. AUG 2000                                               PRI. VIOUS Hill ION IS 06501. ErE.
                                                                                                                                                                          Reset




                                                                           67 

                                                                 F8M 8F¥I@IAifs                               ~S~         81'l15Y 

Defense Logistics Agency Comments 





                                  DEFENSE LOGISTICS AGENCY 

                                         HEADQUARTERS 

                             8725 JOHN J. KINGMAN ROAD . SUITE 2533 

                              FORT BELVOIR. VIRGINIA 220GO- G22\ 



                                                                                    DEC' 52010


      MEMORANDUM FOR DEPARTMENT OF DEfENSE INSPECTOR GENERAL

      SUBJECT: Response to draft report Competition Isslies mId I"herently Gov(ll'llnltmtal Functions
               per/orllled by COlltrClctor Employees on ContrClcts to Supply Fllelto U.S. Troops;1I
               Iraq, Report No. D2009-DOOOCH-0244

              Defense Inspector General audited Defense Logistics Agency (DLA) Energy at the
      request ofthe Chainnan oflhe I·Iouse Comminee on Oversight and Govenunent Refonn.

             The purpose of this memorandum is to provide DLA's responses to the Department of
      Defense Inspector General audit report recommendations.

             We would like to thank the DoDIG staff for their time and expertise during the ludit.


                                             i\~OcnM. Wnw~
                                                  NANCY M. HEIMBAUGH
                                                  Senior Procurement E.'Ce<;utive
                                                                                                        I   I




                                                                                                        I   I




                                                            68
                                              f'81t 8f'f'I@IAh          8S~     8NhY
                                            DEFENSE LOGISTICS AGENCY
                                             DEFENSE ENERGV SUPPORT CENTER
                                           8725 JOHN J. KINGMAN ROAD, SUtTE 4950
                                             FORT BELVOIR, VIRGINIA 2206CH1222


IN REPLY
  REFER TO   DLA Energy-DI


             MEMORANDUM FOR DEPARTMENT OF DEFENSE fNSPECTOR GENERAL

             SUBJECT: 	Response 10 draft report COIIIJH/illolliulles and Illherell/ly Govemlllell/ttl FunclionJ
                         per/orllled by COIl/rtle/or Employees 011 Conlft/Cls 10 SlIpply Fllel/o U.S. Troops   ;11
                        Iraq. Report No. D2009-DOOOCH-0244


                     Defense lnspector General audited Defense Logistics Aboency (DLA) F.nergy at tbe
             request of the Chainnan of the House Committee on Oversight Dnd Government Refoml.

                   The purpose of this memorandum is to provide DLA Energy's responses to the
             Department of Defense Inspector General audit report recommendations.

                    Wc would like to thank the DoDlG staff for !heir time and expertise during tbe audit.


                                                         i/i .~~)
                                                          PATRICK J. DULfN
                                                          Deputy Commander




                                                                 69
                                                     F81t 8FFIt!tA:h "'"Sf! 8PfhY
                         DEFENSE LOGISTICS AGENCY 


     REPLY TO DOD 10 DRAFT REPORT: COMPETITION ISSUES AND 

      INHERENTLY GOVERNMENTAL FUNCTIONS PERFORMED BY 

   CONTRACTOR EMPLOYEES ON CONTRACTS TO SUPPLY FUEL TO U .S. 

          TROOPS IN IRAQ, REPORT NO. D2009-DOOOCH-0244 



This provides the Defense Logistics Agency's (pLA) comments on the Department of
Defense Inspector General's (000 10) draft report, Project No. D2009-DOOOCH­
0244. The dJ'aft report covers a series of DLA contracts awarded to International
Oil Trading Company (lOTC) for fueJ delivered from Jordan to Iraq. We initially
note that the draft; report cannot address the allegation that IOTC was a "war
profiteer", since the DoD 10 did not review the specific costs and pl"Ofit that IOTC
actually incurred and realized.

Recommendation Al. We recommend the Director, Defense Logistics
Agency Energy, require contracting officers: When contracting for both
commercial and noncommercial products and services on the same
contract, incorp.o rate Federal Acquisition Regulation clause 62_216-2,
"Audit and Records-Ne,otiation," in the solicitation Issued to provide fOI'
Defense Contract Audit Agency audit rights lor noncomDlflrclal products
and servlcos being acquired,

DLA response: Concur 8S written. It is DLA's practice and policy to include these
clauses for all products and services that it determines to be noncommercial. DLA
non-concurs with the implication that the fuel contr8cts from Jordan that wel'e the
subject of this audit contained any noncommercial products or services.

Recommendation A2. We recommend the Di.rector, Defense Logistics
Agency Energy, require contracting officers: Obtain appropriate cost or
pricing data and necessary field pricing assistance to support price
reasonableness determinations for proposed fuel prices in a contingency
operation environment when competition is questionable and a
comparable commel'clal market does not exist.

DLA response: Partially concur as written. DLA policy will be issued in January
2011 to implement agoncy-wido the pl'Ovisions oCtile Defense Procurement and
Acquisition Policy Memorandum, dated November 24, 2010, Subject: Improving
Competition in Defense ProeUl"ements.

Additionally, DLA has, consistent with the September 14, 2010, Unde_r Secretary of
DcCcn80 (Acquisition, Technology and Logistics) Memorandum, 8ubject: Better
Buying Power: Guidance Cor Obtaining Greater Efficiency and Productivity in




                                             70 

                                   F8R 8FFI@IAh tiS@ ButS 

Defense Spending, placed a renewed focus on obtaining the information needed to
ensure that contract prices are fair and reasonable,

Federal Acquisition Regulation (FAR) 15.403-1(b)(3) and (c)(3) prohibit the
contracting officer from obtaining ccrtified cost or pricing data when purchasing an
item that meets the deunition of a commercial item, Purlluant to FAR 15.403-3, the
                                                                            N
contracting oJlicer obtained "information other than cost 01' pricing data from IOTC
8S part of the price reasonableness determination for two of the foul' contracts at
issue, and conducted an extenaive analysis of the plices for all fOUl' contracts. DLA
recommends that the dl'aft report credit the contt'acting officer for obtaining the
same "inCormation ot.her than cost or pricing data" to support the price
reaaonableness determination for the 2009 IOTC contract that was obtained for the
2004 contract,

DLA Don·concurs with the implication that the contracts contained any non·
commercial products or services. DLA re-examined t.he facta and circumstances of
these contracts and confh'med that the contracting officer correctly determined that
the item being pUl'Chased, fuel on an FOB destination basis for delivery to Iraq, was
a commercial item. The determination of whethe l' a product is 8 commercial item is
within the sound discretion of the contracting officer. The !<'AR defmition of
commercial item does not exclude items purchased in, 01' delivored to, war zones,
Th.e commorcial item definition focu8es on the item purchascd, not where it is to be
used, Statute and regulation 8Upport the view that commercisl items can be used to
support contingency operations. See 41 USC 4288 (d), FAR 13,600(e).

Offero1'8, including IOTC, had to establish a supply chain that included pUl'chase of
the fuel. tl'anSpol1.ation, storage, loading and unloadini of tho fuel, and truckin&, the
fuel to destination. Tho IG states that there is no commel'Cial market for the
delivery of fuel into a war zone. However, Iraq's refining capacity did not meet the
countl-y's need and Iraq had to import fuel for its civilian use, which was then
transported by truck to location8 throughout the country, Thus, truck
tl'ansportation WftS a commercialllCrvice in Iraq, even during war time,
Notwithstanding the determjnation for ~hese contl'acts, DLA will remind
contl'8cting officers tbat such situations should be closely reviewed before any
commerciality detel'mination is mada.

Recommendation Bl. We reconunend the Director, Defense Logistics
Agency Energy, require contracting officers: When using Free-On-Board
Destination-type contracts at contractor-run Defense Lo,istics Agency
Energy capitalized fuel support points, either appoint a contracting
officer's representative to perform the acceptance function, assi,n the
rosponsibility to the Dofense Contract Management Agency, or enter into a
documented ag.'eement with the organization overseeing the fuel support




                                                 71 

                                      F8* 8FFICIi'l'Is "SIS 8Nt!li 

point contractor that requires that only Government employees a~ept the
fuel.

DIA response: Partially concur. DLA recognizes that acceptance, is an inhel'ently
govemmental function. DLA designated Government officials to review aDd accept
product delivered under the contracts. DLA non·concurs with the implication that
it had control over the fuell"eceipt function in Iraq. DLA had no such control. The
governing directive places substantial responsibility for receipt of fuel on the
Combatant Commands and Military Services. Pursuant to DoD Directive 4140.25,
DoD Management Policy fm' ~nergy Commodities and Related Services (2004),
Section 5.4.2, the Combatant Command.8 8hall: "Plan and manage. in coordination
with the Director. DLA. the intra-theater and inter-theater receipt, storage, and
distribution ofpeu'OleutD products." Section 5.4.5 provides t.h at the Combatant
Commands shall: "Establish and maintain a quality program for l'eccipt, storage,
and issue of Military Service and DIA-owned products in accordance with [DoD
4140.25·M. DoD Management of Bulk Petl'Oleum Products. Nat1.Jral Gas, and Coal)."
Section 5.5.1 mandates that the Military Services will: NPl'Ovide for the operation of
pch'oleum facilities under their cognizance; control the receipt, issue, and
management of petroleum stocks at operating locations in coordination with the
DLA."

DLA is currently examining options for ensuring compliance with the requirement
that acceptance be performed by Government personnel. DLA will take steps to
ensure that, when Government personnel Bre designated to perform the acceptance
function, it is in fact these porsonnel performing that function and not contractor
personnel.

It should be noted, however, that in the case of the IOTC contracts, DLA did not
make the decision to rely on the Army lIupport contractol' to receive fuel. It was the
Army that made the fuel receipt decisions.

Recommendation B2. We rccommend the Director, Defense Logistics
Agcncy Enel'CY, require contracting omcers: Develop procedures to
ensure tJlat the acceptance documentation requirements identified in its
contracts are complied with.

DLA response: Concur. DLA will ensure future solicitations reflect receipt and
acceptance proccdUl'CS in effect during the performance of the contract.


DLA Additional Comments

The draft 10 report incorrectly states that DIA paid! $160 ,t o 240 million more to
IOTCthall could be supported by price analysis. This claim is not supported by
analysis performed in accordance with FAR requirements. The contracting officer




                                                      72
                                    F81t 8FFI@IAIs -"SIS 8nls"l
utilized the techniques andl procedures identified in the FAR to analyze prices and
determined that the prices were fair and reasonable.

The contl-acting officer's primal'y concern is the overall price the Government will
actually pay. A fair and reasonable price determination dOllS not require agreement
be reached on every elcment of COBt, nor is it requh-ed that the agreed price be
within the contracting officer's initial negotiation position. To support the fair and
reasonable price determination fOl' the contracts, the DLA contracting officer
compared proposed prices received in response to the solicitation, previously
proposed prices and previous contract prices for similar items, and information
other than certifiod OO8t or pricing data from IOTC and relied upon advisory
recommendations pl'Ovided by DLA support offices.

For this IG audit, DLA provided detailed information to the IG to explain t.hc fuel
market, industry pricing, and price analysis for fuel contl'acts in general. However,
the draft report relies on what it calls the non-fuel component of IOTe's first
contract to state that all future cont.racts should have contained that same fi,gure,
and that any figure above that could not be supported by price analysis, However,
the non-fuel components of fixed-price contracts can vary over the course of fOUl'
ye81'S, depending on the offeror's cm;ts and pel'CCived performance risks. Based on
the available facts, there is no basis to conclude that the non-fuel component of the
cont1'8ct prices was other than fnir and realOnable.

It should be noted that IOTC's contract award prices declined for each of the three
contracts negot.iated after the fi rst contract award, which the thaft audit report
credits as having been documented pI'oporly. In addition, in many instances during
tho conh-act performance periods, the prices that DLA Energy negotiated with
IOTe for deliveries into a war zone were lellS than pricoa on the West Coast of the
United Statcs,

The draft report also uses an altomative calculation by comparing IOTC's prices
with the lowcst price received under each solicitation, This approach, howevel', doss
not take into account that these lower pl'iced offers were from offerol'l; Who the
contracting officer determined were not capable of porforming the contracts, a
conclusion not questioned in the draft report. These prices thus cannot serve as any
sort ofbenchmal'k against which to compal'C IOTC'a contract prices. The
overpayment analysis is IIlso \lD8upported by an analysis of IOTC's {lctQal costs. We
noto that IOTC cooperated with congressional investigators, who concluded that
IOTC's profits over the duration olthc contracts may have been 14 per cent, The
FAR docs not limit profit in a flXed-price contract.




                                               73
                                    F8tt 8FFI@IA"b HSIS 8UfcH
